<html>
<title> - EXAMINING HIGHER EDUCATION INSTITUTIONS' SERVICES TO VETERANS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     EXAMINING HIGHER EDUCATION INSTITUTIONS' SERVICES TO VETERANS

=======================================================================



                             FIELD HEARING

                               before the

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        MONDAY, NOVEMBER 4, 2013

              FIELD HEARING HELD IN RIVERSIDE, CALIFORNIA

                               __________

                           Serial No. 113-41

                               __________

       Printed for the use of the Committee on Veterans' Affairs





                  U.S. GOVERNMENT PRINTING OFFICE
85-866                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

                       Jon Towers, Staff Director

                                 ______

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                      BILL FLORES, Texas, Chairman

JON RUNYAN, New Jersey               MARK TAKANO, California, Ranking 
MIKE COFFMAN, Colorado               Minority Member
PAUL COOK, California                JULIA BROWNLEY, California
BRAD R. WENSTRUP, Ohio               DINA TITUS, Nevada
                                     ANN M. KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                            November 4, 2013

                                                                   Page

Examining Higher Education Institutions' Services To Veterans....     1

                           OPENING STATEMENTS

Hon. Bill Flores, Chairman, Subcommittee on Economic Opportunity 
  (EO)...........................................................     1
Hon. Mark Takano, Ranking Minority Member, Subcommittee on 
  Economic Opportunity (EO)......................................     2
Hon. Gloria Negrete McLeod, U.S. House of Representatives........     3

                               WITNESSES

Dr. Cynthia Azari, Interim Chancellor, Riverside Community 
  College District...............................................     3
    Prepared Statement of Dr. Azari..............................    24
    Executive Summary of Dr. Azari...............................    25
Dr. Steven G. Brint, Vice-Provost, Undergraduate Education, 
  University of California, Riverside............................     5
    Prepared Statement of Dr. Brint..............................    26
Pamela Daly, Campus President, DeVry University - San Diego......     7
    Prepared Statement of Ms. Daly...............................    28
Albert R. Renteria, Member, Small Business Taskforce, The 
  American Legion................................................    13
    Prepared Statement of Mr. Renteria...........................    32
Sherrod Conyers, California Delegate, National Legislative 
  Committee, Veterans of Foreign Wars of the United States.......    15
    Prepared Statement of Mr. Conyers............................    34
Marques Dredd, Former President, Veterans Club, Riverside City 
  College........................................................    18
    Prepared Statement of Mr. Dredd..............................    35

                       STATEMENTS FOR THE RECORD

Student Veterans of America......................................    36


     EXAMINING HIGHER EDUCATION INSTITUTIONS' SERVICES TO VETERANS

                        Monday, November 4, 2013

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 9:59 a.m., at 
Hall of Fame Room, Bradshaw Building, Riverside Community 
College, 4800 Magnolia Avenue, Riverside, CA, Hon. Bill Flores 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Flores, Takano, and Negrete 
McLeod.

           OPENING STATEMENT OF CHAIRMAN BILL FLORES

    Mr. Flores. Good morning, everyone. The Subcommittee will 
come to order.
    I thank all of you for joining us for this field hearing of 
the Subcommittee on Economic Opportunity of the House Committee 
on Veterans' Affairs. My name is Bill Flores, and not only is 
it my pleasure to serve as Congressman for the 17th District of 
Texas, which includes part of the communities of Waco, Bryan, 
College Station, parts of Austin and several others, but also, 
it is my honor to serve as the Chairman of the Subcommittee.
    Before we begin, I would like to say what a pleasure it is 
to be here at Riverside City College, and I thank my colleague 
and Ranking Member of the Subcommittee, Congressman Mark 
Takano, for hosting us today. It is great to work with a 
thoughtful legislator like Mr. Takano on our continued goal to 
provide economic opportunities for veterans.
    Today, we are here to examine and highlight programs, 
policies and benefits that lead to educational success for 
student veterans. Educational success for student veterans can 
take many forms. We all know that a 4-year college degree is 
not necessarily right for everyone, and with American companies 
continually begging for a skilled workforce due to the so-
called skills gap, our Nation's community colleges, like 
Riverside, are providing critical training for the 21st century 
workforce.
    Student veteran success is not only important for veterans, 
but also for the American taxpayer as well. I mention this 
because under the right circumstances, the post-9/11 GI Bill 
can be worth over $270,000 to eligible veterans, and I am sure 
that we all must agree that we must make the most effective use 
of these taxpayer resources.
    Unlike many other forms of student aid, the GI Bill is a 
benefit our veterans have earned, and we must do what we can to 
ensure that they are given the best tools available when 
choosing an educational program, as well as to equip them to be 
successful while they are in education or in training.
    Congress has done a good job in this regard by enacting 
bipartisan laws such as Public Law 112-249 to add levels of 
transparency for student veteran choice and outcomes. We also 
continue to fund VA's Vet Success On Campus program which has 
provided over 80 campuses with grant funds to assist veterans 
in their transition to student life.
    We must remain vigilant in our oversight of these programs 
to ensure that the VA is meeting their stated performance 
standards and that they are truly helping veterans reach 
educational success.
    Today, I look forward to hearing testimony from experts in 
the higher education sector about innovative programs and 
services that they are now offering to student veterans in 
California, and how we can replicate their positive impact 
across the country. I am also very interested in suggestions 
that our witnesses may have on how to improve VA programs and 
services to our veterans on campuses nationwide.
    At this time, I ask unanimous consent that our colleague, 
Mrs. Negrete McLeod, be allowed to sit at the dais and ask 
questions. Hearing no objections, that is so ordered.
    Once again, I am very happy to be here this morning, and it 
gives me great pleasure to recognize Mr. Takano for his opening 
remarks.
    Mr. Takano?

             OPENING STATEMENT OF HON. MARK TAKANO

    Mr. Takano. Thank you, Mr. Chairman. I want to welcome you 
and everyone from Washington, D.C. to Riverside, California. I 
also want to thank President Azari, Chancellor of Riverside 
Community College District, and her staff for providing us the 
Hall of Fame Room here at Riverside City College.
    Finally, I want to welcome the other witnesses who have 
joined us here today, and I look forward to hearing from all of 
you.
    Mr. Chairman, thank you for coming to California. I know it 
is a long way from both Washington and your district in Waco, 
Texas. I know that you are truly committed to the Subcommittee 
on Economic Opportunity and its responsibility to protect our 
veterans and provide them with the services they need to 
succeed, and I especially appreciate the bipartisan way in 
which you run our Committee.
    Riverside County has the eighth largest veteran population 
of any county in the Nation, making this the ideal location to 
hold a field hearing. Chief, among this Committee's 
responsibilities is to ensure that the post-9/11 GI Bill is 
providing our veterans with the necessary assistance, resources 
and services to pursue higher education.
    Undergraduate and graduate degrees are becoming more and 
more important to finding meaningful employment. Returning 
veterans tell me all of the time that finding a job is both the 
most important and the most difficult thing they faced when 
they transitioned out of the service and back into civilian 
life.
    I know that our local school, Riverside, provides some 
unique and effective services for our veterans, and I look 
forward to hearing more about them. I am also eager to hear 
from our student veteran who was the former president of the 
RCC Veterans Club about his experience transitioning back to 
civilian life, enrolling in school, and working towards a 
degree.
    Finally, I look forward to hearing from our veteran service 
organizations about their experiences helping veterans find 
educational opportunities.
    So again, welcome to California, Mr. Chairman, and I yield 
back.
    Mr. Flores. Thank you, Mr. Takano.
    Mrs. Negrete McLeod, you are now recognized for any opening 
statement you may have.

        OPENING STATEMENT OF HON. GLORIA NEGRETE MCLEOD

    Mrs. Negrete McLeod. Thank you, Mr. Chair, and Mr. Takano, 
for inviting me to this hearing. While I don't sit on this 
particular Subcommittee, I do have my own Subcommittee that I 
sit on. Last August, past August, I had a hearing in Fontana in 
which we dealt with other issues, what kind of issues impacted 
veterans. So thank you very much for allowing me to come. I 
serve the 35th district, which is just west of here. And again, 
thank you for allowing me to be here with you.
    I will leave a little early since I already had some 
obligations. Thank you.
    Mr. Flores. Mrs. Negrete McLeod, thank you for joining us 
today. It is an honor to have you here, as well.
    Our first panel includes Dr. Cynthia Azari from the 
Riverside Community College District; Dr. Steven G. Brint from 
the University of California at Riverside; and Ms. Pamela Daly 
from DeVry University-San Diego.
    Each of you will be recognized for 5 minutes, and we will 
begin with Dr. Azari.

  STATEMENTS OF CYNTHIA AZARI, INTERIM CHANCELLOR, RIVERSIDE 
  COMMUNITY COLLEGE DISTRICT; STEVEN G. BRINT, VICE-PROVOST, 
 UNDERGRADUATE EDUCATION, UNIVERSITY OF CALIFORNIA, RIVERSIDE; 
   PAMELA DALY, CAMPUS PRESIDENT, DEVRY UNIVERSITY-SAN DIEGO

                   STATEMENT OF CYNTHIA AZARI

    Ms. Azari. Mr. Chairman and Committee Members, thank you 
for inviting me to testify this morning regarding the veteran 
services and programs in place at Riverside Community College 
District's three colleges; and welcome to Riverside City 
College, an institution with a proud, 97-year history serving 
students and veterans.
    When I came before you in Washington, D.C. this past June, 
I spoke about the current services in place at the colleges and 
the importance of H.R. 331, and offered several suggested 
strategies for helping institutions better serve student 
veterans. Today, I would like to expand on several points and 
offer some ideas that can be emulated throughout the country at 
public institutions serving veterans.
    First, however, I would like to say how pleased we are with 
the progress of H.R. 331, now a part of H.R. 2481, which was 
passed in the House of Representatives a week ago today, and 
has now been sent to the Senate. We believe this legislation, 
which will allow the centralized reporting of veteran 
enrollment by accredited institutions within the same district, 
will go a long way towards streamlining key processes used to 
serve our student veterans. As a district and colleges, we 
thank you for moving along this important legislation.
    Here at Riverside City College, we have an established 
veterans center where veterans can talk with peer counselors 
and get educational guidance in a supportive environment among 
fellow veterans. We offer veteran-specific orientations and 
priority registration, along with a student veteran education 
plan. We have a district-wide disabled veteran services program 
and an active veterans club. More than 1,200 veterans receive 
these services at our colleges each semester.
    In turn, this leads them directly to the classroom and into 
the workroom or transfer to university environment. The 
approach is proving successful, and the University of 
California Riverside is using the ARM program as a model to 
shape veteran services at their institution.
    Of the over 1,200 veterans studying at our colleges, 67 
percent are enrolled in one or more career technical classes, 
with nearly 60 percent of those selecting a career technical 
program leading directly to the workplace, and the remaining 40 
percent completing Associate degrees, leading to transfer to a 
4-year university. The program selections were in nursing, 
administration of justice, computer programming, business 
administration. The popular choices for transfer were math and 
science, social and behavioral health, and computer information 
systems.
    Attending community college will cost an average full-time 
veteran student more than $18,000 a year: $2,800 is for 
tuition, fees, books and supplies; and $11,000 for off-campus 
room and board; and another $4,000 for miscellaneous expenses.
    In the evolution into a multi-college district, we now 
budget specifically for veterans programs, separating from the 
general admissions and records budgets. Doing so gives college 
administrators a truer picture of the staff and financial 
resources required to serve our veteran population. While we 
are still in the early stages of this shift, I can report that 
we are budgeting nearly $400,000 in general funds, state funds, 
on veteran services, excluding the comparatively small amount 
of $20,000 in direct funding from the U.S. Department of 
Veterans Affairs.
    In addition to offering traditional academic and career 
technical classes through our Office of Economic Development, 
we also serve veterans starting or operating small businesses. 
In 2012, our Office of Economic Development sponsored 25 
outreach events, provided 1,550 business counseling sessions, 
directly assisted 461 individuals and 61 veteran-owned small 
businesses. These services helped veterans and veteran-owned 
businesses with more than $27 million in contract and sub-
contract awards.
    Outreach funding remains one of the main challenges in 
implementing the more comprehensive veterans services and 
programs at our community colleges. Quite simply, community 
colleges need more Federal funding for veterans, or at least 
more Federal funding released at the local level.
    Community colleges are portals to the education of the 
majority of veterans. We can move veterans quickly into the 
workplace or into a transfer environment. But we need access to 
more funding and more services supplied at the Federal level, 
but administered and delivered on the local level. This 
financial challenge could be overcome in a fashion similar to 
how the VA is already implementing broad improvements such as 
the Benefits Portal, the VRAP and VMAT. All of these 
initiatives are designed to create seamless access and 
education transitions for veterans, and each depends on the 
Federal-local partnership approach.
    As educators and elected officials, it is incumbent upon us 
to help veterans achieve their dreams. That is our collective 
challenge. Riverside Community College District and our three 
colleges rise to this challenge, but seek to do so alongside 
all of our sister colleges in partnership with the Veterans 
Administration so that all veterans seeking services can be 
readily served.
    Mr. Chairman, that concludes my testimony. Thank you for 
the opportunity to speak today on this critical national and 
local issue, and I would be happy to take any questions.

    [The prepared statement of Dr. Cynthia Azari appears in the 
Appendix]

    Mr. Flores. Thank you, Dr. Azari.
    Dr. Brint, you are recognized for 5 minutes.
    Oh, I didn't explain the timer. The green light means that 
you have 4-and-a-half minutes. The yellow light means you have 
30 seconds. The red light means you need to wrap up quick.
    Dr. Azari, you were right on.
    I forgot to explain how the lights worked.
    Dr. Brint?

                  STATEMENT OF STEVEN G. BRINT

    Mr. Brint. Good morning. I am Steven Brint, Vice Provost of 
Undergraduate Education at UC Riverside. I am honored to be 
here today to share with you information about UCR's success 
helping veterans transition into higher education and to be 
successful once they do transition.
    The GI Bill provides the financial resources for veterans 
to earn a 4-year degree, and UC Riverside has achieved national 
recognition for combining access with strong support services 
and excellence in undergraduate teaching.
    Many of UCR's 21,000 undergraduates and graduate students 
have stories that can make success more difficult. They are 
frequently from low-income backgrounds, often the first in 
their families to attend college. They come from an environment 
in the military of tight unit cohesion and specific direction 
and order.
    They sometimes feel isolated in a higher education setting 
that focuses on the individual rather than the unit. At UCR, we 
work to keep our military members, veterans, and family members 
in close touch with each other, and to continue that sense of 
unit cohesion as they move through their studies.
    Our veterans services coordinator, Chryssa Jones, sits on 
the Regional Board of Directors of the National Association of 
Veterans Programs, and she is an expert in providing services 
to our veteran students. In addition to meeting with each VA 
beneficiary face-to-face every quarter, Chryssa advises our 
student veteran organizations, coordinates campus programs and 
services, and is frequently asked to speak at regional and 
national meetings. Her office suite includes space for a 
veterans lounge so that our veterans on campus can have a place 
to meet informally.
    Veterans have gone the extra mile for us, so let me tell 
you about some of the ways that UCR goes the extra mile for our 
veterans. We have a scholarship fund, Operation Education, that 
is geared to help cover funding gaps for veterans who have 
suffered combat-related injuries. In fact, we are currently 
finalizing the details of a formal relationship to streamline 
the process for veterans transferring from here at the 
community college to UCR.
    We have orientation sessions specifically tailored to the 
needs of veterans, as well as welcome events for the veterans 
and their families. In April, we teamed up with other colleges 
in Inland Southern California, home to 30,000 veterans, for the 
Inland Empire College Boot Camp. We offered resources and 
answered questions that veterans have about how to get off to a 
good start.
    At UCR, veterans receive priority class registration, as 
well as assistance with paperwork associated with the GI Bill 
and state benefit programs. We send out regular updates on 
policy and legislative changes that affect our veterans. We 
offer a deferred payment plan and an exemption from the 
application fee, and the first late fee each quarter, just to 
make sure that we are removing some of the common causes of 
frustration.
    When the Federal Government shut down last month, UCR 
prepared a contingency plan to waive additional late fees, lift 
registration holds, and provide emergency loan funds to 
veterans and their families. We have a veteran support team 
with members from about 20 departments on campus to make sure 
that we hear from our veterans when they need assistance. Our 
alumni office coordinates some internship programs between 
students and alumni veterans.
    The UCR Career Center has developed Operation VETS, which 
stands for Veteran Employment Transition and Success. The 
program is organized as a bi-weekly workshop for a small group 
of veterans and servicemembers. In these workshops, veterans 
polish their resumes, practice networking and interviewing, 
pick up job search strategies, and enjoy exclusive recruiting 
opportunities in jobs that lead to prospective employers and 
other benefits.
    I am going to just quickly skip just a bit. I wanted to say 
that our campus has currently 500 veterans, and one of those is 
Luis Contreras, a UCR graduate of 2012 who majored in 
biological sciences. He credits UCR with helping prepare him 
for a career in medicine, and I am happy to say that he is a 
member of our inaugural class in the School of Medicine.
    He has told us, ``UCR programs helped me connect with 
fellow veterans and not feel like an outcast for being a non-
traditional student.''
    We expect great things from him and from all of the other 
highly motivated and conscientious veterans on our campus. They 
have provided outstanding service to our country. In turn, we 
work to provide outstanding educational and social support 
services for them.
    If you have questions, I will be happy to answer them. 
Thank you.

    [The prepared statement of Dr. Steven G. Brint appears in 
the Appendix]

    Mr. Flores. Thank you, Dr. Brint.
    Ms. Daly, you are recognized for 5 minutes.

                    STATEMENT OF PAMELA DALY

    Ms. Daly. Good morning. On behalf of the students, faculty, 
and staff at DeVry University in San Diego, thank you for the 
opportunity to provide the Subcommittee more information on the 
great work that we are doing to empower our veterans to achieve 
their educational and career goals.
    DeVry University has a long history of service to our 
military personnel that dates back to the 1940s, where we 
trained Army Air Corps instructors on electronic devices. And 
then following World War II, DeVry was one of the first schools 
approved to accept the original GI Bill.
    Today, we help veterans and military students make higher 
education a reality with year-round scheduling, distance 
learning, and degree programs that provide a solid foundation 
for career success.
    DeVry University has more than 90 VA-approved facilities, 
with most of them participating in the Yellow Ribbon program, 
including the one that is here in San Diego. Nationally, DeVry 
University serves over 6,500 veterans, with nearly 400 at our 
campus in San Diego, about half of our population. We attribute 
that to our unique geographic locale. Understand that we are 
only 10 miles away from 10 military bases and 25,000 military 
servicemembers.
    To make DeVry University education more affordable for 
active-duty military and their spouses, these students receive 
special tuition rates. We also provide veterans with tuition 
grants, and veterans and servicemembers alike can qualify for 
credits based on their military coursework as we follow the 
American Council on Education Military Guide.
    We also participate in the Department of Veteran Affairs' 
Principles for Excellence program, and DeVry University is a 
member of the Service Members Opportunity Colleges Consortium, 
as well as the SOCS degree network system.
    DeVry University has a dedicated military affairs team. It 
is comprised of former servicemembers, veterans, reservists, 
spouses, that provide ongoing support to the veterans and 
active-duty members throughout their education. We also have 
student success coaches who closely assist military students to 
complete education plans, identify potential barriers to 
success, and to obtain resources to overcome those barriers and 
assist them with registration from semester to semester.
    We offer our staff sensitivity training through the VA and 
provide the VA Vet Centers open access to the campus, allowing 
for free communication with veterans and early identification 
of issues that they might face.
    A prospective student goes through a pre-screening with a 
military education liaison who is a member of the Military 
Affairs Team and is typically the veteran's initial contact. 
They then meet in our comprehensive interview with an 
admissions advisor. The advisor explains the interview is a 
two-way process. We are interviewing the candidate, and they 
are also interviewing us to ensure that this is the right 
choice for their educational and career goals.
    DeVry University has resources in place to help our 
military students transition to school and work through the 
challenges that they face. The program is called the DeVry 
ASPIRE program. It provides confidential and free counseling 
services 24/7 to all enrolled students and their family 
members, and it helps them with things such as financial and 
legal consultation and referrals, mental/emotional/behavioral 
issues, PTSD, child care issues, family concerns, anything that 
might create an obstacle to the student's success in their 
degree program.
    On campus, we have a veterans Resource Center that is 
dedicated space for veterans to find military resources and 
contacts, including an advisor to again help them who is 
dedicated to military-oriented problems and challenges.
    The San Diego campus has hosted military educator forums in 
collaboration with local ESOs and created and promoted 
designated military job fair opportunities.
    To further support veteran students, DeVry University has 
an active veteran community at many of our campuses, and at San 
Diego, we have just initiated the Student Veteran Association, 
which will be having its first meeting in January.
    We have quarterly town halls that are hosted by the 
Military Affairs Team, and military appreciation events for 
Memorial Day and Veterans Day that are hosted on campus.
    There is really so much more that I would love to tell you 
about DeVry University and our commitment to serving and 
supporting our military students, but I realize my time here 
today is limited, and I want to thank the Committee again for 
the opportunity to share some of these best practices and to 
answer any questions. Thank you.

    [The prepared statement of Pamela Daly appears in the 
Appendix]

    Mr. Flores. Thank you, Ms. Daly.
    I thank the panel for their testimony, and I will recognize 
myself for 5 minutes for questions to begin.
    But before I do that, I would like to recognize that 
Congresswoman Grace Napolitano has a representative here.
    Hector, would you stand up?
    Hector Elizalde--did I get that close? Okay, good--is here, 
so I want to thank Congresswoman Napolitano for having someone 
here to join us today.
    My first question is this. This is for each of you. What 
recommendations do each of you have for Congress on how we can 
help you assist the student veterans better?
    We will just start in the same order that you testified, if 
that is okay. Dr. Azari?
    Ms. Azari. Thank you. If we were able to access Federal 
funds similar to Title V or Title III, even if it is a 
competitive process, we would be able to use those funds to 
provide more services to veterans. We really had to squeeze it 
out of our general funds in order to set up a veteran center. 
But we would be able to provide a lot more services, and 
especially in our Office of Economic Development, because we 
are helping veterans who are interested in being entrepreneurs 
and setting up their own small businesses.
    So, I think, not only the veteran center, but to help us 
provide a veterans entrepreneurship program that would really 
help them set up their own small businesses.
    Mr. Flores. And did you say those should be awarded on a 
competitive basis?
    Ms. Azari. I am fine with being on a competitive basis.
    Mr. Flores. Okay, okay.
    Dr. Brint?
    Mr. Brint. Yes. I think that one of the issues on campus is 
the advising situation for veterans. Veterans sometimes feel a 
bit lost on a large university campus. It would be very helpful 
to us to have more intrusive advising so that we can give them 
as much feedback as they need. Also, it would be extremely 
helpful if we could do more to connect the veterans with 
veteran-friendly employers in the communities. This would 
perhaps require some additional funds from Congress, but I 
think competition, I would agree, is something that we would 
favor.
    Mr. Flores. Okay. I like the terminology on intrusive 
advising.
    By the way, before we go on, I would like to thank UC 
Riverside for what you did to accommodate veterans during the 
government shutdown by making emergency loans available to 
them. I appreciate what you all do.
    Ms. Daly?
    Ms. Daly. Well, I want to say, first of all, thank you for 
the step forward with the JST, the Joint Services Transcript, 
which is now merging all of the different branches into a 
unified transcripting format, which has been extremely helpful 
in evaluating our veterans' transfer credits, and also that 
they are now available online, which is a wonderful thing, 
because we can get them pretty quickly, within 24 hours. So 
that helps us better serve our servicemembers as they come to 
school.
    I think the one thing that we have sometimes faced, some 
challenge, with a little bit differently from my colleagues, 
who have expressed some great concerns, is that the voice 
between who the servicemember speaks to and who the university 
speaks to aren't always on the same page. There is a little bit 
of a disconnect between the messaging that a servicemember gets 
and what the university is being told. So maybe just more of a 
cohesive message, one voice that is represented to the 
servicemembers as well as to the universities.
    Mr. Flores. Okay.
    This question is for Dr. Azari and Dr. Brint. The VA runs a 
program called the Veteran Success On Campus program, which 
places a certified vocational rehab counselor on campuses as a 
way to assist veterans with VA benefits and transition issues. 
Has either your district or your campus heard or applied to 
this program?
    Ms. Azari. No, we have not.
    Mr. Flores. Okay. Well, if you don't mind, we will spend a 
few minutes with you afterwards, or John will. If you haven't, 
I would suggest you take a look at it. From what we have 
learned, it is a great opportunity for schools to get a trained 
VA employee on their campus.
    Ms. Azari. Right. Thank you.
    Mr. Brint. That does sound like a wonderful opportunity, 
and we have not taken advantage of it either at this point.
    Mr. Flores. Okay. It does sort of get to what you were 
talking about as far as--I was going to say aggressive 
counseling or advising, but there might be a way to partner 
with each other so that you could use a VA counselor on your 
campus to help with that.
    This question is for each of you. There has been a lot of 
talk in the higher education community about student success. 
How would you define success for your students, and how does 
your school attract success for student veterans? I am about to 
run out of time, so you can hit it very quickly.
    Ms. Azari. I think students have to help us define that 
success, if they want just enough courses to advance in their 
chosen field or if they want to transfer.
    Mr. Flores. Okay.
    Mr. Brint. We generally define it as retention and 
graduation, and also we should think about subject-matter 
mastery as well. If you graduate without the knowledge, it is 
not such a great thing. So we focus on how they are doing in 
the classroom and whether they are graduating.
    Mr. Flores. Okay. Ms. Daly?
    Ms. Daly. Based on graduation. We would say that 71 percent 
of our veterans are graduating, going through to graduation in 
about 2.6 years.
    Mr. Flores. My time has just about expired. I thank each of 
you for your answers. And again, I thank each of you for your 
testimony today.
    I am going to recognize Mr. Takano for 5 minutes for any 
questions he may have.
    Mr. Takano. My question is for Ms. Daly.
    Ms. Daly, you heard that Riverside Community College 
devotes about $400,000 out of its own budget for programs 
specifically targeting veterans. Is there any similar kind of 
budget line item at DeVry?
    Ms. Daly. That is a really good question. I don't think I 
am qualified to answer that question at this time, but I could 
get back to you with that information.
    Mr. Takano. Okay. Are you mainly career and technical 
programs, do you also have transfer programs into 4-year 
programs?
    Ms. Daly. We are Associate, Bachelor's, and Master's degree 
programs.
    Mr. Takano. So you offer Bachelor's and Master's programs?
    Ms. Daly. Yes, and we primarily have transfer-in students, 
so those finishing community college and transferring in. 
Usually about 40 credits is a transfer in from our military 
folks into DeVry University.
    Mr. Takano. I want to just compare costs between the two. I 
think Dr. Azari mentioned about $18,000 a year is the cost if 
the student--it costs an average full-time student, a veteran, 
$18,000 a year. Do you have a comparable cost number?
    Ms. Daly. Well, for veterans, it is a little bit different 
because of the Yellow Ribbon program. So whatever the program 
covers, that is what we are charging the veteran to attend. So 
there is no out-of-pocket above and beyond their scholarships 
and their funding. So, does that answer your question, sir?
    Mr. Takano. The cost is funded by the government. My 
question is, what is the cost for a student to attend DeVry, 
whether a veteran or not?
    Ms. Daly. A non-veteran student would be about $16,000 a 
year in tuition.
    Mr. Takano. In tuition alone? Does that include books and 
supplies?
    Ms. Daly. It does.
    Mr. Takano. Okay. Does it include off-campus board?
    Ms. Daly. No. We have primarily non-traditional students. 
We don't have dorms in our locations.
    Mr. Takano. Okay.
    Dr. Azari, tell me more about the veteran center that RCC 
created. Why was it created? How was it funded? And what is the 
size of its budget?
    Ms. Azari. We have a veteran center. It is a student 
engagement center. So there is a back office that provides 
assistance with paperwork, but the bulk of the center, the 
major portion there is a television, there are computers, there 
are study areas, and there is a sofa and a comfort area so that 
students can connect with other veteran students. I don't have 
the cost for their budget, but let me see if Joy does.
    Okay. Like I said, we spend about $400,000. Normally, what 
we do, Riverside City College gets about half of that, so that 
is about $200,000, and the other colleges get 25 percent of 25 
percent. So I would say $100,000. That includes tapping.
    Mr. Takano. Great. And is it able to fully serve the 
veteran population at RCC?
    Ms. Azari. We do the best that we can. We are open every 
day, and there is staff located in the offices every day.
    Mr. Takano. What are the greatest challenges you face in 
attracting and serving veterans?
    Ms. Azari. I think getting the message out and 
communicating that we have services for veterans and that we 
will provide that assistance.
    Mr. Takano. Has your research office been able to determine 
any differences in their success rate compared to the regular 
student body?
    Ms. Azari. Not to my knowledge, but that would be helpful.
    Mr. Takano. One more thing. Do veterans have issues with 
preparation? Are they arriving at college level? Is there an 
overall sense you can give me on this?
    Ms. Azari. Eighty percent of community college students in 
California come in with deficiencies, either in English or 
math. So I am certain that we have identified those, and then 
we provide the remediation.
    Mr. Takano. Okay. Can you answer that question, Ms. Daly? 
Are there similar issues of preparation, and is there any 
screening that you do, or assessments?
    Ms. Daly. Yes. Assessments are required for admission. Like 
my colleague, we are experiencing the same kinds of challenges 
with remedial coursework required. I would say with our veteran 
population and military folks, the English is there. The verbal 
and written primarily is not nearly the challenge. But we do 
require college algebra, which if you don't use it, you kind of 
lose it. So there is a remedial kind of revisit to that to kind 
of brush up on those skill sets.
    Mr. Takano. All right. I think my time is about to run out, 
and I yield back.
    Mr. Flores. Thank you, Mr. Takano.
    Mrs. Negrete McLeod, you are recognized for 5 minutes.
    Mrs. Negrete McLeod. Thank you. Thank you, Mr. Chair.
    For all of you, all the community colleges have veteran 
centers, and each community college in my district, and my 
district serves three community colleges, which is Valley, 
Mount Sac and Chaffey, and everybody claims to have the best 
veteran center. Since you all have the best veteran center, do 
you all--and you have all used the term ``best practices.'' Do 
you all kind of coordinate with each other to see what is the 
best practice for everybody, even for the universities, since 
you also have the best veteran center?
    Ms. Azari. I would say yes, that we do, certainly among the 
community colleges in California. We have regular meetings of 
individuals who work with veterans. There are also national 
meetings where we get together and talk about those things.
    But I can tell you that when I was at Riverside City 
College last fall, we did have visitors from the University of 
California Riverside to come look at our veteran center because 
they wanted to expand their program. So I know that we have 
some best practices.
    Mr. Brint. I would say the national ----
    Mrs. Negrete McLeod. Because I also have Cal Poly in my 
district. So, everybody has the best. So I just wanted to know 
do you do the same thing?
    Mr. Brint. I won't make a claim about who has the best, but 
we certainly attend the national meetings. We are attentive to 
the practices of all the universities. We attempt to emulate 
the practices that are working. And one thing that is 
distinctive about our university is, we evaluate what we do and 
we look very carefully at how the veterans are looking at our 
services, whether they feel they are benefitting from our 
services. We track their progress, and we are constantly trying 
to direct resources and sometimes redesign programs to best fit 
the needs of our populations.
    Ms. Daly. I would say yes, within our sector. Again, like 
my colleagues, within the private sector, we have meetings that 
kind of discuss the veteran challenges, successes, best 
practices, ways to improve. One of the ways that we measure the 
outcome is through what we call a promoter score or student 
satisfaction rate, and the University of San Diego is well 
above--into the 50s, which is considered the top tier of 
satisfaction rate. So that is how we know we are doing well, 
and persistence is strong to graduation. Those are the ways 
that we measure how well we are doing.
    Mrs. Negrete McLeod. Because my district has DeVry, has 
ITT, has a bunch of private post-secondary schools. So do you 
all kind of meet together? I know you are out in San Diego.
    Ms. Daly. Yes, ma'am.
    Mrs. Negrete McLeod. And I am out this way.
    Ms. Daly. Yes, ma'am.
    Mrs. Negrete McLeod. So it would be the same whether you 
are down in San Diego or this way.
    Ms. Daly. Yes, there are many regional meetings with folks 
from the VA kind of spearheading those and that open dialogue, 
that feedback back and forth.
    Mrs. Negrete McLeod. Thank you.
    Mr. Flores. Thank you, Mrs. Negrete McLeod.
    And I want to thank each of you for your testimony.
    I don't have any personal experience with groups like 
community college does or with UC Riverside, but I do 
appreciate what you told us today. I do have a large employer 
in my district, L3 Communications, that is very happy with the 
number of DeVry candidates they have working with them.
    So I thank each of you for what you do for our Nation's 
veterans, and this panel is now dismissed.
    For our second panel, we will have Mr. Albert R. Renteria 
representing the American Legion; Mr. Sherrod Conyers, 
representing the Veterans of Foreign Wars; and Mr. Marques 
Dredd, representing the Riverside City College Veterans Club. 
Each of you will be recognized for 5 minutes.
    We also have another Member of Congress that has a 
representative here today. Congressman Raul Ruiz has a 
representative, Rebecca Rodriquez Lynn. Are you here?
    So if any of you need to reach out to Congressman Ruiz's 
office, Rebecca will be happy to visit with you about that, I 
am sure.
    So we will now begin your testimony. We will start with Mr. 
Renteria.
    You are recognized for 5 minutes.

   STATEMENTS OF ALBERT R. RENTERIA, MEMBER, SMALL BUSINESS 
  TASKFORCE, THE AMERICAN LEGION; SHERROD CONYERS, CALIFORNIA 
 DELEGATE, NATIONAL LEGISLATIVE COMMITTEE, VETERANS OF FOREIGN 
  WARS OF THE UNITED STATES; MARQUES DREDD, FORMER PRESIDENT, 
             VETERANS CLUB, RIVERSIDE CITY COLLEGE

                STATEMENT OF ALBERT R. RENTERIA

    Mr. Renteria. Chairman Flores, Ranking Member Takano, and 
distinguished Members of the Subcommittee, on behalf of 
Commander Dellinger and the 2.4 million members of the American 
Legion, I thank you and your colleagues for the work you do in 
support of our servicemembers and veterans, as well as their 
families.
    Education is increasingly essential to success in the 
American job market. Whether obtaining a traditional liberal 
education or pursuing a job credential, the shift in the 
American economy from manufacturing-based to information-based 
demands a radical increase in the need for higher education.
    Since 1944, when the American Legion shepherded the 
original GI Bill into law, our organization has taken a strong 
interest in higher education, particularly with regard to 
veteran education. The capacity of the post-9/11 GI Bill 
greatly expanded the educational benefits available to 
veterans. The American Legion understands this benefit comes at 
a significant cost, but the experience is well worth it both 
for the veteran and the Nation, because it represents an 
investment in the future of our veterans and of the country, an 
investment that will pay off in spades, just as the original GI 
Bill did.
    As veterans transition from the military to civilian life, 
they need education and job training in order to be competitive 
in the current job market. However, it has become increasingly 
apparent that there is a need to obtain information on student 
outcomes and ensure the transparency of institutions of higher 
learning while providing quantitative information on student 
veterans in order to assess America's return on investment in 
the Post-9/11 GI Bill.
    Taxpayers deserve to know how well their money is being 
used. But even more importantly, veterans looking to utilize 
their earned education benefits deserve to be given a fair 
deal, and deserve to be given good information that will help 
them make a smart decision about college.
    Additionally, policymakers need reliable data when 
considering potential policy adjustments. Some of the specific 
data points that the American Legion believes are relevant and 
should be researched and made available include: the number of 
part-time, adult, military, remedial, and Pell Grant students 
who are successfully completing degrees; data regarding 
students who do not complete programs, whether they are 
transferring to other schools or dropping out altogether; the 
percentage of tuition paid out-of-pocket by the student versus 
the percentage the institution receives from government 
sources; the amount of overhead debt students are being 
burdened with, and whether they are paying back their loans, 
especially students who do not complete their degrees; whether 
students are finding jobs in their fields; whether students are 
continuing on to graduate school.
    While it is true that some of this data is already 
collected and reported, virtually none effectively captures 
student veteran outcomes. Data which is reported to the 
Department of Education and complies with the Higher Education 
Act of 1965 tracks only first-time full-time students. However, 
veterans by and large do not fall into this category. 
Typically, student veterans are adults attending part-time, 
perhaps online, and they have previously taken post-secondary 
classes in some form. Changing these metrics to better capture 
the student veteran population, as well as the growing number 
of other non-first-time, full-time students in higher 
education, would be a step in the right direction.
    Further, data which is provided to the National Student 
Clearinghouse, a non-profit organization that collects and 
disseminates current enrollment and graduation data of the vast 
majority of American institutions of higher learning, does not 
track student veterans specifically. Because of this, the 
American Legion believes it necessary to develop metrics and 
data collection which tracks student veterans specifically, 
from the beginning of their higher education experience through 
its completion and employment outcomes.
    Finally, the American Legion recommends more scrutiny be 
given to the process of granting alternative credits. 
Alternative credit is credit which may be granted for 
experiences garnered outside of traditional classroom settings. 
For example, students may be granted credit for successfully 
passing a prior learning assessment, or for military or job 
experience. The American Legion believes that data collating 
the granting of this type of credit with student outcomes would 
be useful in assessing the importance of this type of credit to 
overall student success.
    In sum, the American Legion urges the embrace of outcomes-
focused data systems which provide information that enable 
stakeholders to make informed decisions. America has recognized 
that veterans are an incredibly valuable resource and, through 
the post-9/11 GI Bill, has invested in them. We need to ensure 
that veterans are able to make the most of this crucial benefit 
for themselves, their families, their communities, and our 
country.
    Again, thank you for the opportunity to testify, and I 
would be glad to answer any questions you may have.

    [The prepared statement of Albert R. Renteria appears in 
the Appendix]

    Mr. Flores. Thank you, Mr. Renteria.
    Mr. Conyers?

                  STATEMENT OF SHERROD CONYERS

    Mr. Conyers. Mr. Chairman and Members of the Subcommittee, 
on behalf of the men and women of the Veterans of Foreign Wars 
of the United States of America and our Auxiliaries, I would 
like to thank you for the opportunity to offer the VFW's 
perspective on the services our colleges and universities offer 
to student veterans.
    As a current-conflict veteran, I understand firsthand how 
difficult the transition can be from military to civilian life. 
For student veterans in particular, the culture shock of going 
from military life to college life can be particularly 
daunting. This is why campus resources, specifically for 
student veterans, have been so critical to veterans' success in 
higher education.
    For years, the VFW has been at the forefront of improving 
educational opportunities for veterans who have served since 9/
11. The VFW championed the post-9/11 GI Bill, which recently 
turned 5 years old. Last year, we championed legislation to 
improve consumer information and consumer protections for 
veterans through the Improving Transparency in Education for 
Veterans Act, which was signed into law in early January. This 
year, the VFW is fighting for in-state tuition for veterans at 
public colleges and universities, seeking to ensure veterans 
can maximize their benefits at the publicly-funded school of 
their choice.
    But the VFW believes that we not only have the obligation 
to ensure that veterans have access to higher education, but we 
have the obligation to ensure they can graduate and find 
quality careers. Recent accomplishments like the post-9/11 GI 
Bill and the Transparency Act are designed to ensure that 
veterans are academically and financially prepared to go to 
college, but they do little to ensure that veterans will 
actually graduate. This is where college-specific services to 
student veterans play a critical role.
    Over the last few years, many colleges and universities 
have stepped up to improve their on-campus services to 
veterans, and we applaud those kinds of initiatives. The VFW 
echoes the sentiment of our colleagues at Student Veterans of 
America, or SVA, when they say that the investment of a college 
or university in its veterans has to start at the top. We agree 
that college presidents must have a vested interest in the 
veterans' community on their campus, or those veterans will 
face significant hurdles establishing veteran-specific 
services.
    To the VFW, a model college campus embraces three basic 
concepts: student veterans who are organized within the student 
body; buy-in from top campus administration, to include the 
college president, through which policies are crafted and 
resources allocated to support veterans; and dedicated physical 
space to veterans' resources beyond the school certifying 
official.
    The first concept is simple. Veterans should come together 
on campus to offer mutual aide, assistance and camaraderie to 
their veteran peers. Moreover, organized student veteran groups 
must make a concerted effort to become an integral part of 
campus life by either organizing events like community 
fundraisers or participating in campus events like intramural 
sports. The VFW has seen many successful models for this around 
the Nation, particularly from student veteran organizations 
under the SVA umbrella at more than 800 college campuses from 
coast to coast.
    One example is at Rutgers University in New Jersey where 
newly-matriculated Iraq and Afghanistan veterans founded a 
small campus group in 2008, dedicated to supporting their 
fellow veterans, educating their educators about the veterans' 
community, giving back to campus, and improving veterans' 
services. Today, the student veterans at Rutgers are a critical 
cog in campus decision-making, and a well-respected group 
within the student body.
    The second concept is many times the most difficult to 
accomplish, but the veteran community has made considerable 
headway over the last few years. At first, many college 
presidents do not readily recognize the diversity of ideas and 
experiences that college-bound veterans bring to campus. 
However, once recognizing this, college presidents are quick to 
buy in, ensuring their student veterans can be best served by 
their institution.
    One example is nearby San Diego State University where 
student veterans made their case to college leadership who in 
turn identified gaps and offered services and campus resources 
wherever they could, such as an old fraternity house now used 
exclusively for campus veterans. Today, San Diego State boasts 
one of the Nation's most engaged veteran communities on campus 
and the largest student veteran population in California.
    Another example is right here at Riverside City College, 
where the administration recognized the need for priority 
enrollment for student veterans. Unlike Federal student aid, GI 
Bill programs have a finite timeline and dollar amount with 
which a veteran can earn a degree. This means that veterans 
cannot mark time waiting for required degree courses to open 
up. Riverside recognized this and extended priority 
registration to all recently-separated veterans and GI Bill 
beneficiaries to ensure they can enroll in necessary classes 
and graduate in a timely manner.
    The final concept is often a product of the second. Last 
November, California State University, Fullerton, opened its 
veteran center, where veterans can meet throughout the day, 
speak with educational advisors, take advantage of peer 
tutoring, or learn about available veteran benefits. Similar 
veteran centers are also up and running right here at 
Riverside, at San Diego State, and other campuses around 
California.
    Since the implementation of the post-9/11 GI Bill, many 
colleges have recognized the wealth of knowledge and experience 
our veterans bring to the community. Some of the Nation's most 
elite schools, like Columbia University and Georgetown, have 
built robust veteran communities on campus capable of molding 
the leaders of tomorrow, as we intended. However, there is 
still room for improvement.
    The VFW has followed closely the growth and success of VA's 
Vet Success On Campus program. What started as a one-campus 
pilot in 2009, quickly expanded to eight campuses by the end of 
2011; 17 campuses in 2012; 32 in 2013; and a proposed 94 
campuses in 2014. VSOC offers VA-specific resources directly to 
veterans on college campuses. This program has been invaluable 
to the colleges that have been fortunate enough to be added to 
the list. However, the VFW believes this program has the 
potential to reach hundreds of other campuses around the 
country.
    The VFW also remains concerned that many schools still do 
not fully acknowledge American Council on Education, or ACE, 
credit recommendations for military training when veterans 
enroll. Currently, Servicemember Opportunity Colleges, or SOCs, 
consortium participants must have policies in place to evaluate 
and accept military academic credits. Unfortunately, most 
schools are not SOC participants. We understand that Congress 
cannot legislate the acceptance and transfer of military 
credits, but the VFW would prefer to see GI Bill-eligible 
schools acknowledge military academic credits and implement 
reasonable policies to accept credits where applicable.
    The VFW also believes that financial concerns continue to 
impede academic progress for student veterans. The cost of 
college is a concern for all Americans, and even though many 
veterans have access to the robust post-9/11 GI Bill, most 
veterans still face significant out-of-pocket costs to finance 
their education.
    With this in mind, the VFW continues to advocate for in-
state tuition for recently-separated post-9/11 GI Bill 
veterans. As written, the post-9/11 GI Bill only reimburses in-
state tuition and fees for veterans attending public schools. 
Sadly, many veterans attending public schools cannot qualify 
for in-state tuition because the transience of military life 
has made them ineligible. Since these policies vary disparately 
state by state, the VFW believes that we must offer reasonable 
in-state tuition protections for student veterans on a national 
level, especially for veterans who cannot qualify because of 
circumstances beyond their control.
    Finally, the VFW also believes that schools accepting GI 
Bill dollars should offer priority enrollment to student 
veterans if they offer priority enrollment to other student 
groups, like student athletes. I explained earlier in my 
testimony why this was such a critical issue for veterans who 
have a finite time in which to use their benefits. Many 
schools, like Riverside City College, have already stepped up 
to offer priority enrollment to foster student veteran success, 
but we believe that more can be done to ensure GI Bill-eligible 
schools adopt similar policies.
    As you can see, campus services for veterans play a key 
role in ensuring student veteran success in higher education. 
We have seen significant improvement in this area since the 
passage of the post-9/11 GI Bill, but we must continue to do 
better. We have several opportunities to get this right at the 
Federal level, and the VFW stands ready to assist, as we have 
always done in the past.
    Chairman Flores, Ranking Member Takano, this concludes my 
statement, and I am happy to answer any questions that you may 
have.

    [The prepared statement of Sherrod Conyers appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Conyers.
    Mr. Dredd?

                   STATEMENT OF MARQUES DREDD

    Mr. Dredd. Good morning, Chairman and Congressman. My name 
is Marques Dredd. I am a member, a retired member of the Air 
Force. I was medically discharged. When I was asked to be here, 
I was very excited because I think you get a different 
perspective when you actually see someone who is going through 
the process, who has experienced things and seen things and 
seen how much we have grown.
    The transition from a military lifestyle to a student can 
be a challenging experience. I was medically discharged from 
the Air force. When I returned from Iraq, I found myself in a 
lost place and trying to find out what my next steps would be. 
After many attempts to find employment, I decided that college 
would give me better opportunities to fulfill my goals.
    When I first began at Riverside College, life was 
challenging. For instance, I did not know where to start and 
what classes to take. At the time, I felt that the veteran's 
office would not offer much help and I chose to try things on 
my own. A semester later, I spoke with another veteran who 
suggested coming to one of the veteran meetings. I quickly 
realized that there were many veteran resources to help get me 
on track. After attending a few meetings, it was clear that 
there were many opportunities as well as veterans in the same 
situation that I was. This inspired me to become more active 
and join the club.
    After joining the club, I decided that I wanted to become 
the president. I saw other presidents before me, and they were 
motivated, and they wanted to be successful. When I first 
started here, it was a very small building, and we could 
basically just turn in our paperwork, ask a few questions and 
leave. In the past three years, almost four years now, the 
Veterans Club has grown so much, it clearly inspired us as 
veterans to do more and see more.
    I have seen veterans before me that had offices, officer 
positions, go on to succeed. Some examples. One has a Fulbright 
Scholarship to University of San Bernardino, I believe. Another 
got a full-time job, actually was a president. And myself, I 
will be transferring to Cal Poly as an engineering major in the 
winter.
    It is very exciting to see the things that we have done and 
how much we have grown. I think that is one of the most 
important things that I wanted to get across and why I was so 
excited when my advisor asked me to be here. We have things in 
our resource center like computers. Although there are 
computers other places on campus, it is a nice environment to 
go where there are just veterans where we can discuss other 
things, and we truly do try and help each other. We have books, 
and we know that sometimes we are struggling. We may let them 
use our book while we use their book when we are taking 
different classes.
    We really try and network and intermingle with each other, 
which I think is another important aspect of the resource 
center and the Veterans Club.
    When I first started here, I thought veterans were going to 
be a bunch of old veteran guys who just wanted to sit around 
and talk about old war stories, and that was kind of my reason 
for staying away from the Veterans Club. But after seeing what 
it had to offer and what our advisors had to offer, it really 
made me excited. It made me want to do more, and it made me 
want to see that not only people around us, but the student 
population and the college would see us as positive, diverse, 
motivated individuals that want to be successful and are here 
to finish our education. That was my main purpose for going in 
the military, and that is my purpose now.
    I didn't want to use my benefits here. I chose to save 
them, because I have seen how difficult the university level 
can be. So I decided to wait. I have used them a few times, but 
not that much. I have been trying to save them. Now that I will 
be at Cal Poly, I am very excited to see what I can do with 
those benefits.
    But like I said, it is very exciting. I am thankful that I 
could be here and let you know, and if you have any questions, 
I would be more than happy to answer them.

    [The prepared statement of Marques Dredd appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Dredd.
    I want to, before we begin the questioning, I would like to 
thank all of you for your testimony. But more importantly, I 
would like to thank each of you for your service to our 
country. It should not go unnoticed about the sacrifice that 
each of you have made, as well as the rest of your brothers and 
sisters who are veterans, and also your brothers and sisters 
that are in the United States military.
    With that, I will recognize myself for 5 minutes for 
questioning.
    The first question I have is for each of you on the panel, 
and I think some of you spoke to this, especially Mr. Renteria. 
And Mr. Conyers, you talked about this a little bit. But if you 
could summarize, how can Congress and the Federal Government 
better assist clubs like the Veterans Club and RCC and ensure 
student veteran success across the country?
    We will start with Mr. Renteria.
    Mr. Renteria. As American Legion has been in the service 
since 1919, our main focus is the legislative law that offers 
our benefits. As I pointed out in my statement is with the 
changing environment of the economy from manufacturer base to 
information base, the level of educational requirement for us 
is higher than ever before, and it is imperative to appreciate 
data that we could gather, as we proposed, would help us better 
present legislation to the body of what we think needs to be 
considered.
    So the reality is, as I heard some of the panelists before 
us, is they are doing great things, best things for us. All 
veterans are taken care of when we do that. Then we do the 
best. But data collection is key. We know what to do with it. 
If we don't have it, then we can fail you to better decide how 
to pass law for veterans.
    Mr. Flores. Okay.
    Mr. Conyers?
    Mr. Conyers. I agree with my colleague, Mr. Chairman. One 
of the key things that we need to do is communication, 
effective communication. Like Mr. Dredd said, I am a young 
veteran as well, and contrary to popular belief, a lot of those 
old stories have a lot of value in them, so we like hearing 
them.
    But setting an ambiance on college campuses and actually, 
like I stated earlier in my testimony, getting the buy-in not 
only from the administration, but also at the top, it starts 
with the president. It starts with your chancellors or your 
counselors, making sure that they are able to buy in, in what 
we need as far as having an outreach center where it 
specifically caters to veterans. I think Congress has 
appropriated some funds, and there are some, both on the House 
and the Senate side that speak to those volumes of allocating 
more monies.
    We all know in these crucial economic times that here, a 
couple of weeks ago, almost 3.2 million veterans almost didn't 
receive their regular monthly stipend, per se, which doesn't 
even equate to what they really are owed. But making sure that 
we are on the forefront of all conversations when it comes to 
allocating those funds, especially when it comes to education, 
I think that is where we can really start, and that is where 
Congress would be when we advocate for that not only in the 
spring, but also in the fall as well.
    Mr. Flores. Thank you, Mr. Conyers.
    Mr. Dredd?
    Mr. Dredd. One of the important things that I have noticed, 
I would hope that we could change or see changes, our veterans 
counselor does a lot of other things as well, and as the 
president of the club, it is kind of hard when you are trying 
to speak with him. And I know he has things to do as well, so 
he is juggling 10 things at a time. So maybe to have an advisor 
that could work specifically with us, and a counselor that 
could work specifically with us, or at least be given more time 
to focus on us and improving. I think that would be very 
motivational and helpful.
    One of the, I think, hardest things as the president and 
seeing other presidents is when we transfer, sometimes we don't 
have a president, so we have a gap. And then we have a new 
president that has to start, and they have to learn the whole 
process over. So by having an advisor and a counselor that 
worked specifically with us, I think there would be more of an 
easier transition from one president to another.
    Things like that, I think, definitely would be helpful as 
far as--that is one of the major things that I have noticed 
that has been a struggle, whenever we change from one office to 
another, trying to find that gap and learn how to do the things 
over again.
    Mr. Flores. Thank you, Mr. Dredd.
    I see that my time is about to expire, so I am going to 
recognize Mr. Takano for 5 minutes for any questions that he 
has.
    Mr. Takano. As with the Chairman, I wish to associate 
myself with his remarks regarding the gratitude we all owe to 
each of you for your service to our country. So, thank you very 
much.
    Mr. Dredd, I was struck by your strategy of you saying that 
you want to preserve your benefits. I want you to elaborate 
that a little more. Can you tell me why you chose RCC as 
opposed to any other type of school, like a for-profit or a 4-
year university or private school?
    Mr. Dredd. Well, I am a little bit--you wouldn't know it, 
but I am 36. I am a little bit older. I actually worked before, 
and I tried to go to junior college, and I just realized that 
it was pretty difficult, actually, to juggle school and work 
and be able to do just regular day-to-day things without a real 
struggle. So I decided to go into the Air Force. That was my 
main plan.
    When I got out, I knew I was going to have benefits. I knew 
I wanted to use them. But, of course, you hear a lot of times 
there are a lot of programs out there that are just trying to 
get that money from you. And so they make it sound great, they 
make it sound wonderful.
    Me personally, I knew what I wanted to do. I knew I wanted 
to be an engineer. That is why I went in as an aircraft 
electrician. I knew when I got out, I was going to save my 
benefits as much as possible. Of course, it is nice to have 
when you need it. So if there was a semester when I was really 
struggling, I knew that I would be able to use it. But there 
are great opportunities, like we got a scholarship, an Andrews 
scholarship that was donated to us that offers $1,000 a year 
for a short paragraph about what we would do with the money as 
a veteran. That is just at this school alone, and that was 
really great.
    That is motivating for us, and that is a way for us to 
preserve those benefits because, of course, at the junior 
college, it doesn't go as far as it would at a university where 
the tuition is three times, as I have learned, three or four 
times as much.
    So that is a big reason why I chose to hold off and try to 
save them as much as possible, because I have other friends 
that aren't military that have gone through universities, and 
they make great money. I have a friend who is a vet, and he 
makes great money, but most of his money is going to paying off 
all that debt that he had.
    Mr. Takano. Can you tell me, how much did you know about 
how much you had to spend on your education once you knew you 
were going to leave the service?
    Mr. Dredd. I actually didn't know. I just heard a lot of 
people say that the GI Bill is a great way to go, it is a good 
way to save money. So I didn't do a lot of investigating into 
it at the time. I knew I wanted to get some kind of background 
and career. I knew that military service always looks good. I 
also knew that as an electrician and working on aircraft, it 
would be great experience for when I do get my engineering 
degree, and I wanted to focus on having a path, setting a goal, 
and knowing where I was going to go.
    Mr. Takano. So it is just that you had tried to go to 
community college before you went into the service?
    Mr. Dredd. Yes, sir.
    Mr. Takano. And then after struggling, you decided to go 
into the service.
    Mr. Dredd. Correct.
    Mr. Takano. And you knew that you would get the benefits to 
be able to apply yourself more full-time at college after 
leaving the service?
    Mr. Dredd. Yes. I knew that I would be able to focus more 
on school with my benefits instead of worrying about trying to 
find a job and that balance, which is another thing that I 
would like to say, too. I have noticed that a lot of veterans, 
they have jobs as well, and they are trying to go to school, 
and it is really difficult.
    One of the other really great things I would love to see is 
more opportunities for veterans on campus to work with other 
veterans in some sort of paid role. It would give us an 
opportunity to stay on campus, and when we are not doing 
something, we can actually do our studies. When we are off 
campus and we are working somewhere, sometimes it is hard to 
balance that work schedule and school schedule.
    That would be something I also, as a president, really was 
hoping to--would like to see another step in the right 
direction is getting veterans more opportunities not only to 
work on campus, but to work with veterans on campus, because 
that is one of the main motivating factors for other veterans, 
is seeing that--I have seen four veterans before me succeed, go 
on to graduate, go on to other colleges, and that motivates me, 
and it makes me want to motivate other veterans.
    Mr. Takano. Real quick, did you have to take any courses to 
upgrade your skills like remedial courses, that you didn't 
receive credit for, when you came back? Or were you pretty much 
at college level when you got here?
    Mr. Dredd. Fortunately, because I took some college credits 
before I went into the military, some of those did transfer, 
which is a benefit. There were some things--my math skills were 
actually a little bit lacking, but I would prefer to start at 
that lower level and build them than to try to get into a math 
class that I would only do sub-par in.
    Mr. Takano. Well, great.
    My time is about to run out. I yield back, Mr. Chairman.
    Mr. Flores. Okay. Thank you, Mr. Takano.
    If you don't mind, I would like to ask Mr. Dredd a couple 
of follow-up questions.
    Mr. Takano. Sure, go ahead.
    Mr. Flores. What year did you leave the Air Force?
    Mr. Dredd. I left in 2007. Actually, I was medically 
retired.
    Mr. Flores. Okay. And were you aware of the transition 
assistance program at the time?
    Mr. Dredd. To be honest
    Mr. Flores. It is called TAP.
    Mr. Dredd. Yes, I did know about the program, and I think a 
little bit about what happened is, I got really sick after 
returning from Iraq, and the military basically told me that I 
was incapable of working on aircraft as an electrician any 
more.
    Mr. Flores. I see.
    Mr. Dredd. So I was a little bitter, I guess, in the 
beginning. I wanted to prove to myself and to the people around 
me, and to the military, that I could still do the things that 
I wanted to do. And so I took a step back and I didn't really 
want to have anything to do with it. I think once I actually 
got here, I realized what opportunities there were, and then I 
found out about the program.
    Mr. Flores. Okay. I was just curious because you had said 
you didn't know that much about your benefits, and recently the 
VA Committee has made TAP mandatory. That is within the last 
couple of years. We have also codified what it has in it. What 
we don't want to have happen is just somebody to not know what 
their GI benefits are.
    But I thank you for your testimony.
    I thank all of you for your testimony today. Thank you, 
again, for your service to our country.
    Before we adjourn for the day, I would like to extend my 
thanks to the students, staff, administration at Riverside City 
College for hosting us. I thank Mr. Takano for being such a 
gracious host here in California, as well. I thank our 
witnesses for taking time from their busy schedules to be here. 
I would also like to thank the representatives from Ms. 
Napolitano's office and Mr. Ruiz' office for joining us today. 
I assume you will be here for a couple of minutes in case 
anybody has questions for you.
    Finally, I ask unanimous consent that all Members have 5 
legislative days in which to revise and extend their remarks 
and include any extraneous material on today's hearing.
    Hearing no objection, so ordered.
    This hearing is adjourned. Thank you.

    [Whereupon, at 11:07 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

               Prepared Statement of Cynthia Azari, Ed.D.
    Mr. Chairman, Committee Members, thank you for inviting me to 
testify this morning regarding the veterans' services and programs in 
place at Riverside Community College Districts' three colleges; and 
welcome to Riverside City College, an institution with a proud 97-year 
history serving students and veterans.
    When I came before you in Washington, D.C., this past June, I spoke 
about the current services in place at the colleges and the importance 
of H.R. 331, and offered several suggested strategies for helping 
institutions better serve student veterans.
    Today, I would like to expand on several points that not only show 
the level of veterans' services possible at community colleges, but, I 
hope, offer some ideas that can be emulated throughout the country at 
public institutions serving veterans. First, however, I would like to 
say how pleased we are with the progress of H.R. 331, now part of HR 
2481, which was passed in the House of Representatives a week ago today 
and has now been sent to the Senate. We believe this legislation, which 
will allow the centralized reporting of veteran enrollment by 
accredited institutions within the same district, will go a long way 
toward streamlining key processes used to serve our veterans. As a 
district and colleges, we thank you for your role in moving this 
important legislation forward.
    Riverside Community College District has been successful in 
designing and putting into place strong foundations upon which we hope 
to build additional veterans' services. Each of our colleges provides 
the following core services:

    1. A Veterans' Center where veterans can talk with peer counselors 
and get educational guidance in a supportive environment among fellow 
veterans.

    2. Veteran-specific orientation sessions and priority registration, 
along with a Student Veteran Education Plan.

    3. A district-wide disabled veterans' services program.

    4. An active Veterans' Club.

    More than 1,200 veterans receive these services at RCCD colleges 
each semester. In turn, this leads them directly into the classroom; 
and then to the workroom and/or transfer to the university environment. 
The approach is proving so successful, that the University of 
California, Riverside, is using RCCD's program as a model to shape 
veterans' services at that institution.
    Of the 1,200 veterans studying at RCCD colleges, 67% are enrolled 
in one or more career technical classes, with nearly 60% of those 
selecting a career technical program leading directly to the workplace 
and the remaining 40% completing associate degrees leading to transfer 
to a four-year university. Top CTE program selections were in the 
nursing, administration of justice, computer programming, and business 
administration fields; popular choices for transfer were math and 
science, social and behavioral health, and computer information 
systems. Attending community college will cost the average full-time 
veteran/student more than $18,000 a year:

    <bullet>  $ 1,104 Tuition and Fees
    <bullet>  $ 1,710 Books and Supplies
    <bullet>  $11,268Off-campus Room and Board ($4,518 if living with 
parents/commuting from home)
    <bullet>  $ 4,275Miscellaneous Expenses

    With its evolution into a multi-college district, RCCD now budgets 
specifically for veterans programs, separating from the general 
Admissions & Records budgets. Doing so gives college administrators a 
truer picture of the staff and financial resources required to serve 
our veteran population. While RCCD is still in the early stages of this 
shift, I can report that we are budgeting nearly $400,000 in general 
funds on veterans' services--excluding the comparatively small amount 
of $20,000 in direct funding from the U.S. Department of Veterans 
Affairs.
    In addition to offering traditional academic and career technical 
classes, RCCD, through its Office of Economic Development (OED), also 
serves veterans starting or operating small businesses. In 2012, the 
OED sponsored 25 outreach events, provided 1,550 business-counseling 
sessions, and directly assisted 461 individuals and 61 veteran-owned 
small businesses. These services helped veterans and veteran-owned 
businesses win more than $27 million in contract and subcontract 
awards.
    Adequate funding remains one of the main challenges in implementing 
more comprehensive veterans' services and programs at our community 
colleges. Quite simply, community colleges need more federal funding 
for veterans, or at least more federal funding released at the local 
level.
    RCCD and our sister community colleges are the Portals to Education 
for the majority of veterans. Through our mission and our direct 
education-to-workforce connections and partnerships, we can move 
veterans more quickly into the workplace or on to four-year 
institutions for advanced degrees. But we need access to more funding 
and more services, supplied at the federal level, but administered and 
delivered at the local level.
    This ``financial challenge'' could be overcome in a fashion similar 
to how the VA is already implementing broad improvements such as the 
eBenefits portal, VRAP, and VMET. All of these initiatives are designed 
to create seamless access and education transitions for veterans, and 
each depends on a federal-local partnership approach.
    In the same way, through the use of federal block grants or grants 
similar to the Department of Education Title V grants, the VA could 
provide both capital investment and the pathways to create vibrant, 
sustainable learning communities for veterans. This model has proven 
successful in the national Puente Program for Hispanic students and in 
RCCD programs such as Ujima, Talented Tenth, and Renaissance Scholars 
for African American students. Right now the VA is doing the outreach 
through a block grant type of program, letting the colleges do the 
outreach AND service delivery directly to veterans, so they can 
actively take advantage of their VA benefits and advance in non-
military career and educational endeavors more seamlessly; and with 
proper support, locally.
    Determining how to best serve veterans is a work in progress, but 
one thing is certain. RCCD and other community colleges across the 
nation will continue to see an increase in the number of veterans 
seeking higher education and access to the ``American Dream'' they 
pledged and fought to protect.
    As educators and elected officials, it is incumbent upon us to help 
them achieve their dreams. This is our collective challenge. Riverside 
Community College District and our three colleges rise to this 
challenge, but seek to do so alongside all of our sister colleges and 
in partnership with the Veterans Administration, so that all veterans 
seeking service can be readily served.
    Mr. Chairman, that concludes my testimony. Thank you for the 
opportunity to speak today on this critical national and local issue. I 
would be happy to take any questions.
Executive Summary
    Dr. Cynthia Azari, interim chancellor of the Riverside Community 
College District in Southern California is scheduled to present 
testimony before the Subcommittee on November 4, 2013. Dr. Azari's 
testimony focuses on how a multi-college public two-year system 
provides services to veterans to help them progress and reach academic 
and career goals.
    RCCD serves 1.4 million people living in a 450 sq. mile service 
area. Combined enrollment at the Moreno Valley, Norco and Riverside 
City colleges exceeds 33,000; 1,200 of those students are veterans. In 
addition, many veteran-owned small businesses operate in the region, 
and in 2012 RCCD--through its Office of Economic Development--provided 
procurement assistance, international trade, and customized business 
training for some 61veteran-owned businesses and 461 veterans.
    RCCD's three colleges provide a range of services and programs 
serving veterans. Most of these programs are funded with general 
operations dollars (state funding), grants, and private donations. Only 
$20,000 in funding comes from the U.S. Department of Veterans Affairs.
    In 2012, more than 170 student veterans graduated with degrees and/
or certificates. The majority of these graduates were enrolled in 
career technical programs leading directly to the workplace. High 
enrollment programs for veterans included nursing, administration and 
justice, computer programming, business administration, CIS, and math 
and sciences.
    In previous testimony before the Subcommittee, RCCD proposed five 
strategies that would help the VA and community colleges partner more 
effectively to deliver services and programs to veterans. These, 
coupled with RCCD's proven veterans programs--which are being used as a 
model by the University of California, Riverside--and a VA focus on 
providing federal block grants or direct ``veteran learning community'' 
development grants to community colleges would significantly improve 
access to higher education and success for all veterans.
    Riverside City College, Moreno Valley College, Norco College and 
the District look forward to continuing to work with elected officials 
and government agencies to improve and implement services and programs 
for veterans.
EXHIBIT TO THE TESTIMONY OF DR. CYNTHIA AZARI - RCCD - NOVEMBER 4, 2013
RCCD STUDENT VETERAN PROGRAMS & SERVICES
    <bullet>  Each of RCCD's three colleges is authorized to certify 
veterans to receive benefits.
    <bullet>  Each college has Veterans' Resources Centers, either in 
place or in development, to assist with GI Bill and other VA education 
benefits and guidelines.
    <bullet>  Orientation sessions are specifically designed for 
veterans.
    <bullet>  ``Veteran friendly'' college guidance courses are offered 
now. In the future, a Boots to Books Guidance 48 class will be offered.
    <bullet>  Every student veteran receives a Student Veteran
    <bullet>  Education Plan.
    <bullet>  Every student veteran receives priority registration and 
priority transcript assessment and processing.
    <bullet>  The District maintains a disabled veterans' services 
program.
    <bullet>  Comprehensive Veterans' Services brochures, websites, and 
other VA and local agency information/fact sheets and consumer 
information are distributed to student veterans.
    <bullet>  A full-time Veterans' Services Coordinator (RCC) and 
designated Veterans' Services Counselors (all colleges) are available.
    <bullet>  Student Financial Services has an assigned liaison to the
    <bullet>  Veterans' Office to assist student veterans.
    <bullet>  Multidisciplinary Veterans' Services Committees 
coordinate student services support to better address veterans' needs.
    <bullet>  Each college has a Veterans' Club. In the future, we will 
offer Veterans Serving Veterans mentor programs.
    <bullet>  RCC hosts an annual 5k Veterans' Run and other activities 
in support of Veterans in STEM scholarships, and all of our colleges 
provide veteran-oriented activities.
RCCD At-A-Glance
    Service Area: 450 sq. miles

    Population: 1.4 million

    Colleges: Riverside, Norco and Moreno Valley

    Military Installations in Service Area: March Air Reserve Base, 
Naval Surface Warfare Center, Corona, Riverside National Cemetery

    Academic Programs: 100+ degree, certificate and transfer programs

    Student Enrollment: 33,000

    Students by Ethnicity:
    Hispanic!!47%
    White! !!27%
    African American!10%
    Asian/Pac. Islander!08%
    Other/Multiple! !08%

    No. of Student Veterans Served Each Semester: 1,200
    2012/13 Student Veterans Grads: 170

                                 <F-dash>
           Prepared Statement of Vice Provost Steven G. Brint
    Good afternoon. I am Steven Brint, Vice Provost of Undergraduate 
Education at the University of California, Riverside. I am honored to 
be invited to be here before you today to share information about UCR's 
success helping veterans transition into higher education.
    The G.I. Bill provides the financial resources for veterans to earn 
a four-year degree. And UC Riverside has an excellent record of 
combining opportunity through access and excellence in teaching.
    We do not just recruit students; we are committed to their success 
in school and in life. That success has important consequences for the 
development of America's competitiveness in the global economy, and is 
one of many ways that a university contributes to the public good.
    Many of UCR's 21,000 students have stories that can make success 
more difficult. They are frequently from low-income backgrounds, and 
from under-represented minority groups. Many are the first in their 
families to attend college. Sometimes they are reentering school after 
a long absence. In the case of military veterans, they are coming from 
an environment with tight unit cohesion and specific direction and 
order. They sometimes feel isolated in a higher education setting that 
focuses on the individual. At UCR, we work to keep our military 
members, veterans and family members in close touch with each other, 
and to continue that sense of unit cohesion as they move through their 
studies.
    Our veterans' services coordinator, Chryssa Jones, sits on the 
regional board of directors of the National Association of Veteran's 
Program Administrators, a testament to the caliber of expertise 
available to our students. In addition to meeting with each VA 
beneficiary face-to-face every quarter, Chryssa advises our student 
veteran organizations, coordinates campus programs and services, and is 
frequently asked to speak at regional, state, and national conferences 
about veterans in higher education. Her office suite includes space for 
a ``Veteran's Lounge'' so that the campus can offer an informal 
gathering space for veterans and military members on campus.
    Veterans have gone the extra mile for us, so let me tell you about 
some of the ways that UCR goes the extra mile for veterans.
    We have a scholarship fund, ``Operation Education,'' that is geared 
to help cover funding gaps for veterans who have suffered combat-
related injuries at any time following September 2001. In fact, we are 
currently finalizing the details of a formal relationship to streamline 
the process for veterans transferring from here at the community 
college to UCR.
    We have orientation sessions specifically tailored to the needs of 
veterans, as well as a welcome event for veterans and their families. 
In April we teamed up with other colleges in the Inland Southern 
California region - home to nearly 300,000 veterans - for the Inland 
Empire College Boot Camp, to offer resources and answer common 
questions about how veterans can get off to a good start in college.
    At UCR, student veterans receive priority class registration, as 
well as assistance with the paperwork associated with the GI Bill and 
state benefit programs. We send out regular updates on policy and 
legislative changes that may affect military benefits. We offer a 
deferred payment plan, and an exemption from the application fee and 
the first late fee each quarter, just to make sure that we are removing 
some of the most common causes of frustration. When the federal 
government shut down last month, UCR prepared a contingency plan to 
waive additional late fees, lift registration holds, and provide 
emergency loan funds to veterans and military families impacted by the 
shutdown.
    We have a Veteran Support Team with members from about 20 
departments all over campus to make sure we hear about veterans who 
need assistance. For instance, our campus housing office provides a 
veteran roommate matching service for students who choose to live in a 
campus apartment. Our alumni office coordinates a mentorship program 
between student and alumni veterans. Veteran Peer Mentors are available 
to offer experience and advice.
    The UCR Career Center has developed ``Operation VETS'' which stands 
for Veteran Employment Transition Success. This program is organized as 
a bi-weekly workshop for a small group of veterans and service members. 
In these workshops veterans polish their resumes, practice networking 
and interviewing, pick up job-searching strategies, and enjoy exclusive 
recruiting opportunities and job leads from prospective employers, and 
other benefits.
    Of course, we offer academic and environmental accommodations for 
all students with disabilities. If called to duty, service members can 
obtain a leave of absence, and be admitted automatically upon return 
without repeating admissions paperwork.
    UCR offers a workshop that helps staff and faculty learn how to 
recognize and remove the frequently occurring academic and social 
barriers that many student veterans face. We even have an annual 
workshop for our graduate student teaching assistants to help them 
create ``Veteran Friendly Classrooms.'' By empowering these graduate 
students, we are working to remove learning barriers not only here at 
UCR, but everywhere that these future faculty members end up teaching.
    We know that service members and veterans are at risk for feeling 
out of place on a university campus. We have drawn on research and 
environmental scans for best practices to develop these programs. Our 
success with veterans comes from applying some of the same practices 
that have worked with low-income and first generation students to our 
population of veterans and service members.
    UC Riverside currently has about 500 students who are military 
members, veterans, or family members. One of those students is Luis 
Contreras, a 2012 UCR graduate who majored in biological sciences. He 
credits UCR with helping prepare him for a career in medicine. I am 
proud to say that Luis is now a member of UCR's inaugural medical 
school class. He said, ``UCR programs helped me connect with fellow 
veterans, and not feel like an outcast for being a non-traditional 
student.''
    We expect great things from him, and from the many other highly-
motivated and conscientious veterans on our campus. They have provided 
outstanding service to our country; in turn, we work to provide an 
outstanding educational and social support environment for them.
    If you have questions, I will be happy to answer them.

                                 <F-dash>
                   Prepared Statement of Pamela Daly
    October 31, 2013

    Bill Flores, Chairman, Subcommittee on Economic Opportunity
    House Committee on Veteran's Affairs
    335 Cannon House Office Building
    Washington, D.C. 20515

    Dear Mr. Flores:

    Thank you for the opportunity to provide the Subcommittee on 
Economic Opportunity of the House Committee on Veterans' Affairs more 
information about DeVry University-San Diego.
    From training Army Air Corps instructors on electronic devices in 
the 1940s, to being one of the first schools approved to accept the 
original GI Bill after WWII, DeVry University has been educating and 
supporting America's military personnel and veterans for many years. 
Today we help veteran and military students make higher education a 
reality with year-round scheduling, distance learning and degree 
programs that provide a solid foundation for career success.
    Below you will find a brief history of DeVry University, our 
mission, program offerings and other information that will give you 
better insights into the high quality of our programs and our 
commitment of service excellence to our students.
    I have also attached a copy of our Academic Annual Report, as well 
as links to other independent studies referenced below. These reports 
go into even greater detail on DeVry University's programmatic 
offerings, teaching approaches, methodologies we use to measure our 
performance, and the efforts we make to support students.
    Thank you again for the opportunity to submit this information and 
for all the work you do to support our nation's veterans.

    Sincerely,

    Pam Daly
    Campus President, DeVry University-San Diego

Overview
    DeVry University is one of the largest degree-granting higher 
education systems in North America. We provide high-quality, career-
oriented associate, bachelor's and master's degree programs in 
technology, science, business and the arts. More than 55,000 students 
are enrolled at our more than 90 locations in the United States and 
Canada, as well as through DeVry University's online delivery.
    DeVry University's academic structure includes five Colleges that 
house its growing list of degree programs. The Colleges are: Business & 
Management, Engineering & Information Sciences, Health Sciences, 
Liberal Arts & Sciences and Media Arts & Technology.
Mission
    The mission of DeVry University is to foster student learning 
through high-quality, career-oriented education integrating technology, 
science, business and the arts. The university delivers practitioner-
oriented undergraduate and graduate programs onsite and online to meet 
the needs of a diverse and geographically dispersed student population.
Our History
    In 1931 the original school opened in Chicago when Dr. Herman DeVry 
established DeForest Training School to prepare students for technical 
work in electronics, motion pictures, radio and later, television. 
During WWII, DeVry University was selected by the United States 
military to educate Army Air Corps instructors on electronic devices. 
Following WWII, DeVry was one of the first schools to be approved under 
the original GI Bill.
    In 1953, DeForest Training School became DeVry Technical Institute. 
DeVry's associate degree program in electronics engineering technology 
earned accreditation by the Technology Accreditation Commission of the 
Accreditation Board for Engineering and Technology in 1953, and in 
1957, the first associate degree program in electronics engineering 
technology was offered.
    In 1969, DeVry offered the first baccalaureate degree program in 
electronics engineering technology and quickly after that, in 1970, 
DeVry earned accreditation by the Technology Accreditation Commission 
of the Accreditation Board for Engineering and Technology for 
bachelor's degree program in electronics engineering technology.
    In 1973, Keller Graduate School of Management was founded in 
Chicago as the CBA Institute. CBA Institute became Keller Graduate 
School of Management in 1974. In 1981, DeVry earned its initial 
regional accreditation from North Central Association. DeVry Inc. was 
created through the merger of DeVry Institutes and Keller Graduate 
School of Management in 1987.
    Keller Graduate School of Management received approval from the 
North Central Association to offer its master's degree programs online 
in 1998. In 2000, DeVry Institute of Technology received approval from 
the North Central Association to offer its business administration 
bachelor's degree program online. DeVry Institute of Technology and 
Keller Graduate School of Management become DeVry University following 
the approval of The Higher Learning Commission of the North Central 
Association in 2002.
    Today, DeVry University is a critical part of our nation's higher 
education infrastructure, with more than 250,000 alumni, nearly 100 
North American locations and the ability to offer on-site, online or 
blended programs to its students.
Veterans
    As previously stated, DeVry University has a long history serving 
the military and veterans, and was one the first schools accepted under 
the original GI Bill. DeVry University has more than 90 VA approved 
facilities, with many participating in the Yellow Ribbon Program, such 
as the San Diego campus.
    DeVry University has a dedicated Military Affairs team that is 
comprised of former service members, reservists and spouses, who 
provide ongoing support to the veteran and active duty member 
throughout their education. Veteran student issues are routed to the 
Manager of Military Affairs in their respective region to assure their 
full resolution.
    Student success coaches work closely with military students to 
complete education plans, identify potential barriers to success and 
obtain resources to overcome those barriers. We also offer staff 
sensitivity training through the VA and provide the VA Vet's Centers 
open access to the campus, allowing for free communication with 
veterans and early identification of any issues they may face.
    A prospective veteran student goes through a pre-screening with a 
Military Education Liaison who is a member of the Military Affairs team 
and is, typically, the veteran's initial contact. The veteran then goes 
through a comprehensive interview with an admissions advisor. The 
advisor explains that the interview is a two-way process; we are 
interviewing them and they are also allowed to interview us, assuring 
DeVry is a good fit for their educational and career goals. The 
interview culminates into a formal assessment.
    To further support veteran students, DeVry University has an active 
veteran community at many campuses. At DeVry University-San Diego, a 
Student Veteran Association is in the forming stage with the first 
meeting set for January. Quarterly town halls are hosted by the 
Military Affairs team. And annual military appreciation, as well as 
Memorial Day and Veterans Day, events are planned at campuses across 
the country, including at San Diego.
    DeVry University offers the following services to veterans:

    <bullet>  ASPIRE
      I  DeVry ASPIRE provides confidential and free counseling 
services to enrolled students and their family members, including: 
financial and legal consultation and referrals; mental, behavioral and 
emotional health including post-traumatic stress disorder; career 
assistance and job referrals; transitioning back to school, work and 
civilian life; military family concerns, parenting and childcare 
issues; relating to other students and school environment; and 
community-based resources.
    <bullet>  Veteran Resource Center
      I  A dedicated space for veterans to find military-specific 
resources and contacts, including an advisor who is trained to handle 
military issues. Additionally, the San Diego campus has hosted military 
educator forums in collaboration with local ESOs, and created and 
promoted designated military job fair opportunities.
    <bullet>  VA Collaboration
      I  DeVry University campuses provide open access to the local VA 
in an active relationship, as well as partnership with the SVA. VA 
counselors are also allowed to establish office hours at our campuses.
    <bullet>  Disability Support Services
      I  Aside from academic accommodation requests, veteran students 
are referred to the VA for additional disability support services.

    The federal graduation rate measures only first-time, full-time 
students. Very few veterans fall into this classification, making it 
difficult to track graduation rates. However, we can measure the 
retention rate of veteran students. This is measured from a cohort of 
new students in the fall semester who persist into a second academic 
year the following summer or fall semester. Nationally, the retention 
rate for veterans entering in the fall 2011 is 67 percent. This rate is 
higher than the non-veteran population from the same semester who 
retained at a 51 percent rate. At DeVry University's San Diego campus, 
undergraduate retention was significantly higher for veteran students 
at 76 percent, versus 49 percent for non-veteran students.
Options for Military Students
    To make a DeVry University education more affordable for active-
duty military personnel and their spouses, these students receive 
special tuition rates; we also provide veterans with tuition grants, 
and veterans and service members alike can qualify for credits based on 
their military coursework.
    We have signed Memoranda of Understanding (MOUs) with the 
Department of Defense that enables us to accept military tuition 
assistance to help active-duty service members pay for college. As part 
of our MOUs, we participated in a voluntary third-party review to 
measure military students' satisfaction and identify best practices for 
serving this population. A team of assessors visited DeVry University's 
home office to interview leaders, department heads and faculty members, 
and followed up by surveying students who currently serve in the Army, 
Navy, Air Force and Marine.
    Their report included recognition of our strengths as well as 
suggestions for how we can better serve our military students. Notable 
praise included:

    <bullet>  Military students' ability to continue their studies 
seamlessly - thanks to engaging, high-quality nature of online courses 
- as long as they are stationed in a location with reliable internet 
access
    <bullet>  Our specialized training for faculty and staff, and our 
membership in organizations like the Servicemembers Opportunity 
Colleges (SOC) consortium, which works to provide quality programs to 
active-duty military students, their families and veterans
    <bullet>  Responsiveness and flexibility toward service members, 
exemplified by special tuition pricing and transfer-credit policies
    <bullet>  Our commitment to using student-survey data to evaluate 
and improve programs, processes and faculty performance
    <bullet>  Our Student Central service model, including specialists 
trained to work with military students studying online
    <bullet>  Robust career services that will become increasingly more 
important if predicted personnel draw-downs happen in the military

Independent Studies on DeVry University
    There have been several studies in recent years that support the 
approaches DeVry University takes toward serving students and managing 
its own operations. Below are brief summaries:
Cicero study
    An independent economic-impact analysis, conducted by The Cicero 
Group, tracked wage growth from 2003 to 2010 for graduates from DeVry 
University, Chamberlain College of Nursing and Carrington College 
California across seven states, including California, as well as a 
control group of individuals who expressed interest in the DeVry 
schools but ultimately did not pursue a college degree. Both groups had 
statistically similar starting salaries of $25,000-$27,000 in 2003. But 
by the end of the seven-year period, graduates from DeVry University 
averaged wage growth of 60 percent, or an average of $42,661, compared 
to the control group's average final earnings of 18 percent, or 
$29,224.
    In addition to wage growth, graduates from the three DeVry schools 
reported greater job security, were more likely to be employed in 
salaried positions, and more likely to have a job with benefits like 
health insurance. And because 85 to 90 percent of graduates from the 
DeVry Inc. schools remain in their communities five years after 
graduation (compared with 64 to 67 percent for typical college 
graduates), the economic benefits associated with higher college degree 
completion rates are more likely to be felt within the community.
    The study is available for download at: http://bit.ly/DVimpact
McKinsey report
    DeVry University was one of eight colleges and universities 
profiled by McKinsey & Company as models of how the United States can 
meet one of its most urgent economic challenges: producing 
significantly more college-educated workers at a time of shrinking 
public budgets and rising tuitions.
    The McKinsey report, Winning by degrees: the strategies of highly 
productive higher education institutions, cited best practices at DeVry 
University and seven other institutions that can serve as examples of 
how the U.S. can meet its higher education attainment goals without 
increasing public spending or putting more financial pressure on 
students.
    The international management consulting firm says colleges and 
universities must produce more graduates without increasing public 
funding or tuition and without compromising the quality of degrees 
awarded or reducing access - what it calls increasing ``higher 
education degree productivity.''
    According to McKinsey, the eight institutions profiled demonstrate 
that it is possible to increase degree productivity by as much as 23 
percent by 2020 without increasing public funding. Those high 
performing institutions are achieving degree productivity up to 60 
percent better than their peer group average, according to McKinsey's 
research. McKinsey estimates the nation will need to produce roughly 
one million more graduates per year by 2020 - a 40 percent increase 
over today's rate - and to ensure it can meet employer demand for 
skilled professionals.
    The report is available for download at: http://bit.ly/vjQa1r
The Pell Institute study
    Citing a lack of independent research on ``proprietary'' education 
institutions, The Pell Institute for the Study of Opportunity in Higher 
Education (The Pell Institute) conducted a comprehensive review and 
analysis of DeVry University's academic and support services for low-
income, first-generation college students. The study's findings showed 
nontraditional students at DeVry University received high levels of 
personal and academic support, which similar institutions could look to 
replicate.
    The study highlighted the following three guiding strategies behind 
the practices at DeVry University as key to their support for these 
students:
      I  Approach support services for students as customer service
      I  Provide early, in-depth, on-campus student opportunities
      I  Establish and sustain a shared sense of community

    Among the essential elements of DeVry University's support services 
cited by The Pell Institute are: a one-stop shop advising model, an 
early intervention warning system, degree progress tracking, academic 
success centers and career services.
    In addition, The Pell Institute found that ``valuing students as 
customers can establish an effective college success culture,'' 
especially for low-income, first-generation students. ``Students at 
DeVry express that they appreciate feeling valued as a customer and 
receiving individualized attention from the staff, administrators and 
faculty,'' according to the report.
    The report is available for download at: http://bit.ly/
DVUpellreport

                                 <F-dash>
                Prepared Statement of Albert R. Renteria
    Chairman Flores, Ranking Member Takano, and distinguished Members 
of the Subcommittee:
    On behalf of the 2.4 million members of The American Legion I thank 
you for this opportunity to submit The American Legion's views at this 
hearing titled, ``Examining Higher Education Institutions' Services to 
Veterans.'' We appreciate the efforts of this Subcommittee to address 
the needs of the men and women who are currently serving and those who 
served during past conflicts.
    Education is increasingly essential to success in the American job 
market. Whether obtaining a traditional liberal education or pursuing a 
job credential, the shift in the American economy from manufacturing-
based to information-based has necessitated a radical increase in the 
need for higher education. Paradoxically, there is a simultaneous 
increase in skepticism regarding the value of higher education among 
many, given the rise in academic hyper-specialization. Nevertheless, 
many of the fastest-growing sectors of the U.S. economy require post-
secondary education and/or credentialing. According to the Commission 
on the Future of Higher Education's 2006 report, ``The transformation 
of the world economy increasingly demands a more highly educated 
workforce with postsecondary skills and credentials. Ninety percent of 
the fastest-growing jobs in the new information and service economy 
will require some postsecondary education. Job categories that require 
only on-the-job training are expected to see the greatest decline.'' 
\1\ Therefore, as veterans transition from military service, there will 
be an increasing need for them to utilize their Post-9/11 GI Bill 
benefits to acquire relevant and necessary education in order for them 
to be competitive in the current job market.
---------------------------------------------------------------------------
    \1\ Commission on the Future of Higher Education (2006). A Test of 
Leadership: Charting the Future of U.S. Higher Education, September 
2006, 6
---------------------------------------------------------------------------
    It has become increasingly apparent that there is a need to obtain 
information on student outcomes and ensure the transparency of 
institutions of higher learning, while providing quantitative 
information on student-veterans, in order to assess America's return-
on-investment in the Post-9/11 GI Bill. Taxpayers deserve to know how 
their money is being used. But, even more importantly, veterans looking 
to utilize their earned education benefits deserve to be given a fair 
deal, and deserve to be given transparency so that they are able to 
make fully-informed decisions regarding their education. Data regarding 
the accreditation, pricing, and student outcomes of a given institution 
of higher learning must be made available to facilitate these 
decisions, which is why The American Legion agrees with the Commission 
on the Future of Higher Education report, that recommends metrics be 
developed for accurately reporting this data, and that the data should 
be made available to students, and reported publicly in aggregate form 
to provide consumers and policymakers an accessible, comprehensible way 
in order to better promote informed decision-making by all relevant 
stakeholders. \2\
---------------------------------------------------------------------------
    \2\ Ibid., 23
---------------------------------------------------------------------------
    In 2012, The American Legion, along with other veteran service 
organizations, advocated for the Improving Transparency of Education 
for Veterans Act, which was enacted into law on January 10, 2013 as 
Public Law 112-249. The law requires the Department of Veterans Affairs 
(VA) to develop a comprehensive policy to improve outreach and 
transparency to service members and veterans, including the provision 
of information on institutions of higher learning. The law further 
requires VA to create a centralized mechanism for tracking and 
publishing feedback from students and State Approving Agencies (SAA) 
regarding the quality of instruction, recruiting practices, and post-
graduation employment placement of institutions of higher learning 
that:

    <bullet>  Protects the privacy of students, by not publishing the 
names of students; and
    <bullet>  Publishes only feedback that conforms to the criteria for 
relevancy that VA shall determine

    The law also requires VA to provide specific post-secondary 
education information as part of its effort to deliver effective 
methods to provide beneficiaries with accurate information regarding 
post-secondary education and training opportunities that are available. 
Considering the taxpayer's significant federal investment in programs 
and institutions, policymakers should demand better information about 
the effectiveness of higher education. Public Law 112-249, coupled with 
Executive Order 13607: Establishing Principles of Excellence of 
Education Institutions Serving Service members, Veterans, and Spouses, 
and Other Family Members, have been good starting point.
    However, there is still much work to be done. The American Legion 
believes that more data would empower veterans to make better informed 
decisions regarding their education, and would allow policymakers and 
other stakeholders to more accurately assess possible policy 
adjustments. Some of the specific data points that The American Legion 
believes are relevant, and should be researched and made available 
include:

    <bullet>  The number of part-time, adult, military, remedial, and 
Pell Grant students who are successfully completing degrees.
    <bullet>  Data regarding students who do not complete programs: 
whether they are transferring to other schools or dropping out 
altogether.
    <bullet>  The percentage of tuition paid out-of-pocket by the 
student versus the percentage the institution receives from government 
sources.
    <bullet>  The amount of overhead debt students are being burdened 
with, and whether they are paying back their loans - especially 
students who do not complete their degrees.
    <bullet>  Whether students are finding jobs in their fields.
    <bullet>  Whether students are continuing on to graduate school.

    Under the Higher Education Act of 1965, institutions of higher 
learning are required to report their 4 and 6 year graduation rate to 
the Department of Education; however, the metrics utilized only call 
for the reporting of first-time, full-time students. Thus, some 
relevant data is already available to stakeholders; unfortunately, this 
data fails to capture the outcomes of the majority of student veterans. 
Veterans, by and large, do not fall into the ``first-time, full-time'' 
category - typically veteran students are adults, attending part-time, 
perhaps online, and may have previously taken post-secondary classes in 
some form. Changing these metrics to better capture the student-veteran 
population - as well as the growing number of other non-first time, 
full-time students in higher education - would be a step in the right 
direction.
    The National Student Clearinghouse is a second source of data 
available to stakeholders. This is an organization dedicated to serving 
the education community by facilitating the exchange and understanding 
of student enrollment, performance and related information. In terms of 
compliance reporting, the National Student Clearinghouse collects 
current enrollment and graduation data from the vast majority of 
American institutions of higher learning, and in turn makes the data 
available to the Department of Education, and various other 
stakeholders. In this way, data is collected and made available without 
posing risks to student-veterans' privacy. Again, however, it fails to 
track student-veterans specifically. Therefore, The American Legion 
believes it necessary to develop metrics and data-collection which 
tracks student-veterans specifically, from the beginning of their 
higher-education experience through its completion: their transition 
into the workforce. \3\
---------------------------------------------------------------------------
    \3\ The American Legion Resolution No. 67: Student-Veteran Return-
On-Investment Education Outcome
---------------------------------------------------------------------------
    The American Legion also would like data that clearly delineates 
the impact of ``alternative credits'' in the overall success of student 
veterans. Alternative credit is credit which may be granted for 
experiences garnered outside of traditional classroom settings. For 
example, students may be granted credit for successfully passing a 
prior learning assessment, or for military or job experience. Data 
correlating the granting of this type of credit with student outcomes 
would be useful in assessing the importance of this type of credit to 
overall student success.
    In sum, The American Legion urges the embrace of outcomes-focused 
data systems which provide information that enable stakeholders to make 
informed decisions. These systems must provide the data necessary to 
calculate ``return-on-investment'' measures, as well as promoting 
continuous improvement within higher education institutions and 
training programs. These data will also provide valuable feedback to 
policymakers as they seek to optimize policies directed at tracking and 
improving student outcomes. Timely, contextual, and actionable data are 
vital to ensure transparency, accountability, and alignment - all of 
which are critical to improving the outcomes of our education and 
workforce development systems.
    Again, thank you for the opportunity to submit the recommendations 
of The American Legion on this issue.

    For additional information regarding this testimony, please contact 
Mr. Shaun Rieley at The American Legion's Legislative Division, (202) 
999-6881 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="10636279757c7569507c7577797f7e3e7f62773e">[email&#160;protected]</a>

                                 <F-dash>
                 Prepared Statement of Sherrod Conyers
    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:

    On behalf of the men and women of the Veterans of Foreign Wars of 
the U.S. (VFW) and our Auxiliaries, I would like to thank you for the 
opportunity to offer the VFW's perspective on the services our colleges 
and universities offer to student veterans.
    As a current conflict veteran, I understand first-hand how 
difficult the transition can be from military to civilian life. For 
student veterans in particular, the culture shock of going from 
military life to college life can be particularly daunting. This is why 
campus resources specifically for student veterans have been so 
critical to veterans' success in higher education.
    For years the VFW has been at the forefront of improving 
educational opportunities for veterans who have served since 9/11. The 
VFW championed the Post-9/11 GI Bill, which recently turned five years 
old. Last year we championed legislation to improve consumer 
information and consumer protections for veterans through the Improving 
Transparency in Education for Veterans Act, which was signed into law 
in early January. This year, the VFW is fighting for in-state tuition 
for veterans at public colleges and universities, seeking to ensure 
veterans can maximize their benefits at the publicly-funded school of 
their choice.
    But the VFW believes that we not only have the obligation to ensure 
that veterans have access to higher education, but we have the 
obligation to ensure they can graduate and find quality careers. Recent 
accomplishments like the Post-9/11 GI Bill and the Transparency Act are 
designed to ensure that veterans are academically and financially 
prepared to go to college, but they do little to ensure that veterans 
will actually graduate. This is where college-specific services to 
student veterans play a critical role.
    Over the last few years, many colleges and universities have 
stepped up to improve their on-campus services to veterans, and we 
applaud those kinds of initiatives. The VFW echoes the sentiment of our 
colleagues at Student Veterans of America (SVA) when they say that the 
investment of a college or university in its veterans has to start at 
the top. We agree that college presidents must have a vested interest 
in the veterans' community on their campus, or those veterans will face 
significant hurdles establishing veteran-specific services.
    To the VFW, a model college campus embraces three basic concepts: 
Student veterans who are organized within the student body; buy-in from 
top campus administration, to include the college president, through 
which policies are crafted and resources allocated to support veterans; 
and dedicated physical space to veterans' resources beyond the school 
certifying official.
    The first concept is simple: Veterans should come together on 
campus to offer mutual aide, assistance and camaraderie to their 
veteran peers. Moreover, organized student veteran groups must make a 
concerted effort to become an integral part of campus life by either 
organizing events like community fundraisers or participating in campus 
events like intramural sports. The VFW has seen many successful models 
for this around the nation - particularly from student veteran 
organizations under the SVA umbrella at more than 800 college campuses 
from coast to coast. One example is at Rutgers University in New Jersey 
where newly-matriculated Iraq and Afghanistan veterans founded a small 
campus group in 2008 dedicated to supporting their fellow veterans, 
educating their educators about the veterans' community, giving back to 
campus, and improving veterans' services. Today, the student veterans 
at Rutgers are a critical cog in campus decision-making, and a well-
respected group within the student body.
    The second concept is many times the most difficult to accomplish, 
but the veterans' community has made considerable headway over the last 
few years. At first, many college presidents do not readily recognize 
the diversity of ideas and experience that college-bound veterans bring 
to campus. However, once recognizing this, college presidents are quick 
to buy in, ensuring their student veterans can be best served by their 
institution. One example is nearby San Diego State University where 
student veterans made their case to college leadership who in turn 
identified gaps and offered services and campus resources wherever they 
could - such as an old fraternity house now used exclusively for campus 
veterans. Today, San Diego State boasts one of the nation's most 
engaged veterans' communities on campus and the largest student veteran 
population in California.
    Another example is right here at Riverside City College, where the 
administration recognized the need for priority enrollment for student 
veterans. Unlike federal student aid, GI Bill programs have a finite 
timeline and dollar amount with which a veteran can earn a degree. This 
means that veterans cannot mark time waiting for required degree 
courses to open up. Riverside recognized this and extended priority 
registration to all recently-separated veterans and GI Bill 
beneficiaries to ensure they can enroll in necessary classes and 
graduate in a timely manner.
    The final concept is often a product of the second. Last November, 
California State University Fullerton opened its veterans' center, 
where veterans can meet throughout the day, speak with educational 
advisors, take advantage of peer tutoring, or learn about available 
veterans' benefits. Similar veterans' centers are also up and running 
right here at Riverside, at San Diego State, and other campuses around 
California.
    Since the implementation of the Post-9/11 GI Bill, many colleges 
have recognized the wealth of knowledge and experience our veterans 
bring to the community. Some of the nation's most elite schools, like 
Columbia University and Georgetown, have built robust veterans' 
communities on campus capable of molding the leaders of tomorrow as we 
intended. However, there is still room for improvement.
    The VFW has followed closely the growth and success of VA's 
VetSuccess on Campus (VSOC) program. What started as a one-campus pilot 
in 2009 quickly expanded to eight campuses by the end of 2011; 17 
campuses in 2012; 32 in 2013 and a proposed 94 campuses in 2014. VSOC 
offers VA-specific resources directly to veterans on college campuses. 
This program has been invaluable to the colleges that have been 
fortunate enough to be added to the list. However, the VFW believes 
this program has the potential to reach hundreds of other campuses 
around the country.
    The VFW also remains concerned that many schools still do not fully 
acknowledge American Council on Education (ACE) credit recommendations 
for military training when veterans enroll. Currently, Servicemember 
Opportunity Colleges (SOC) consortium participants must have policies 
in place to evaluate and accept military academic credits. 
Unfortunately, most schools are not SOC participants. We understand 
that Congress cannot legislate the acceptance and transfer of military 
credits, but the VFW would prefer to see GI Bill-eligible schools 
acknowledge military academic credits and implement reasonable policies 
to accept credits where applicable.
    The VFW also believes that financial concerns continue to impede 
academic progress for student veterans. The cost of college is a 
concern for all Americans, and even though many veterans have access to 
the robust Post-9/11 GI Bill, most veterans still face significant out-
of-pocket costs to finance their education. With this in mind, the VFW 
continues to advocate for in-state tuition for recently-separated Post-
9/11 GI Bill veterans. As written, the Post-9/11 GI Bill only 
reimburses in-state tuition and fees for veterans attending public 
schools. Sadly, many veterans attending public schools cannot qualify 
for in-state tuition because the transience of military life has made 
them ineligible. Since these policies vary disparately state by state, 
the VFW believes that we must offer reasonable in-state tuition 
protections for student veterans on a national level, especially for 
veterans who cannot qualify because of circumstances beyond their 
control.
    Finally, the VFW also believes that schools accepting GI Bill 
dollars should offer priority enrollment to student veterans if they 
offer priority enrollment to other student groups, like student 
athletes. I explained earlier in my testimony why this was such a 
critical issue for veterans who have a finite time in which to use 
their benefits. Many schools, like Riverside City College, have already 
stepped up to offer priority enrollment to foster student veteran 
success, but we believe that more can be done to ensure GI Bill-
eligible schools adopt similar policies.
    As you can see, campus services for veterans play a key role in 
ensuring student veteran success in higher education. We have seen 
significant improvement in this area since the passage of the Post-9/11 
GI Bill, but we must continue to do better. We have several 
opportunities to get this right at the federal level, and the VFW 
stands ready to assist as we have always done in the past.
    Chairman Flores, Ranking Member Takano, this concludes my statement 
and I am happy to answer any questions you may have.
 Information Required by Rule XI2(g)(4) of the House of Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, VFW has 
not received any federal grants in Fiscal Year 2013, nor has it 
received any federal grants in the two previous Fiscal Years.

                                 <F-dash>
                  Prepared Statement of Marques Dredd
    The transition from a military life style to a student can be a 
challenging experience. I was medically discharged from the Air force. 
When I return from Iraq, I found myself in a lost place and trying to 
find out what my next step would be. After many attempts to find 
employment, I decided that college would give me better opportunities 
to fulfill my goals. When I first began at Riverside City College, life 
was a challenge. For instance, I did not know where to start and what 
classes to take. At the time, I felt that the veteran's office would 
not offer much help and I chose to try things on my own. A semester 
later, I spoke to another veteran who suggested coming to one of the 
veteran meetings. I quickly realized that there were many veteran 
resources to help get on track. After attending a few meetings, it was 
clear that there were many opportunities as well as veterans in the 
same situation that I was in. This inspired me to become more active 
and Join the club.
    The main purpose of the Veterans club is to keep the students 
informed on upcoming events, opportunities, and a place to associate 
with other students that have come from similar situations. As a club 
we strive to be recognized as positive, motivated students that have a 
lot to offer RCC as well as the community. We also want other clubs and 
organizations to understand that although we have military backgrounds, 
we are individuals who embrace our individuality and our diversity and 
value those traits in others.
    The Veterans Resource Center (V.R.C.) which opened in spring of 
2011 has played an important role in giving veteran students' access to 
resources that otherwise would not have been offered. Some examples 
are: quicker priority registration, access to computers and the ability 
to print, laptops that can be checked out on a weekly basis, V.A./AMVET 
officers that can help file claims. These are just a few of the 
resources that the center provides. Another benefit of the resource 
center is the Staff. They are always willing to help and provide the 
most up to date information to students on G.I. Bill benefits and 
processing the paperwork.
    As a Veteran pursuing higher education the resources and Student 
Veterans Association (Veterans Club) have motivated me in many ways. I 
chose to take the position as President of the group because I believed 
that my experience could help others achieve their goals too. Working 
with our Veterans club Advisors Garth Schultz and Santos Martinez, I 
learned a lot about how to network with College staff, organize events, 
and how to provide information that can help promote positive veteran 
influence. Further, I understand what the responsibilities of a club 
are and how to make it successful. These are all skills that I will 
continue to use as I transfer to California Polytechnic State 
University in the winter and throughout the rest of my life.

    Sincerely,

    Marques Dredd
    Veterans Club President (9/2012- 6/2013)

                                 <F-dash>
                        Statement For The Record
                      STUDENT VETERANS OF AMERICA
                           EXECUTIVE SUMMARY
    As the largest and only national association of military veterans 
in higher education, Student Veterans of America's (SVA) mission is to 
provide military veterans with the resources, support, and advocacy 
needed to succeed in higher education and after graduation. SVA has 
been a strong proponent of tracking student veteran outcomes to define 
the success of veterans in higher education and to dispel, or 
substantiate, notions of low veteran graduation rates. SVA was also a 
key contributor, along with The American Legion and the Veterans of 
Foreign Wars, in the effort to provide veterans and servicemembers with 
greater consumer protections and consumer education tools, as evidenced 
by our role in the establishment of the Principles of Excellence and 
the passage of the Improving Transparency of Educational Opportunities 
for Veterans Act of 2012.
    To further support student veterans, SVA has partnered with the 
Department of Veterans Affairs and The National Student Clearinghouse, 
a nonprofit organization with enrollment data on over 95% of America's 
student population \1\, to create and develop the Million Records 
Project. The initiative will track the academic outcomes, including 
graduation rates, for 1 million student veterans enrolled between 2002 
and 2010. The database will address some of the weaknesses in current 
Federal databases and surveys to produce a more accurate estimate of 
student veteran postsecondary completion rates, thus fulfilling a key 
provision of Executive Order 13607. SVA expects to publish an initial 
report on the completion rate of approximately 1 million veterans that 
have used various forms of the GI Bill between 2002 and 2010 in the 
first quarter of 2014.
---------------------------------------------------------------------------
    \1\ National Student Clearing House. ``Clearinghouse Facts,'' 
Accessed June 14, 2013. http://www.studentclearinghouse.org/about/
clearinghouse--facts.php
---------------------------------------------------------------------------
    Accurately measuring the academic outcomes of student veterans will 
benefit countless stakeholders. Policymakers will have sound data upon 
which to base legislative decisions that directly impact thousands of 
GI Bill beneficiaries and servicemembers. Accurate data will also be 
instrumental in evaluating Federal, state, and institutional level 
policies, practices, and services established to support student 
veterans. Effective programs can be brought to scale and others can be 
minimized. The end result will be greater support for student veterans.
    The Million Records Project is a vital first step to accurately 
identifying, tracking, and measuring student veteran postsecondary 
completion rates. It will provide a benchmark of student veterans' 
postsecondary success. The project will be a stepping-stone to identify 
areas where student veterans may need more support and it will likely 
lead to future research regarding student veteran persistence, key loss 
points (moments in time where a high percentage of students dropout), 
and effective programs and policies. Data is critical to empowering 
colleges and universities to better support their student veteran 
population through to graduation.
                           WRITTEN TESTIMONY
    Thank you for inviting comments on this field hearing discussing 
the transparency of student veteran outcomes and ways the higher 
education community can better support student veterans. We are 
particularly grateful for this opportunity to provide the Subcommittee 
with new developments on tracking student veteran outcomes to better 
define student veteran success.
    Student Veterans of America (SVA) is the largest and only national 
association of military veterans in higher education. Our mission is to 
provide military veterans with the resources, support, and advocacy 
needed to succeed in higher education and after graduation. We 
currently have over 900 chapters, or student veteran organizations, at 
colleges and universities in all 50 states that assist veterans in 
their transition to and through higher education. SVA chapters are 
organized at four-year and two-year public, private, nonprofit, and 
for-profit institutions of higher learning. These chapters provide SVA 
with a distinct perspective on veterans earning post-secondary 
credentials.
    Since SVA's founding in 2008, we have been involved in the efforts 
to accurately track student veteran outcomes and to assist the higher 
education community in supporting student veterans on campus. In 
January of last year, SVA was a key contributor and signatory of a 
coalition letter, authored by the Veterans of Foreign Wars, calling for 
executive and congressional action to inform and protect veterans in 
higher education \2\. The letter culminated in the issuance of 
Executive Order 13607 and the passage of H.R. 4057, a bill introduced 
by Rep. Gus Bilirakis and now Public Law 112-247.
---------------------------------------------------------------------------
    \2\ VFW Hill Blog. ``VFW Builds Coalition to Support Student-
Veteran Success,'' February 12, 2012. http://thevfw.blogspot.com/2012/
02/vfw-builds-coalition-to-support-student.html.
---------------------------------------------------------------------------
    A key component of the Principles of Excellence (Executive Order 
13607) is the call to track student veteran academic success rates. 
According to Section 3c, the Secretaries of Defense, Veterans Affairs, 
and Education are to track student outcomes, to the extent practicable, 
utilizing existing administration data. \3\ The tracking of student 
veteran outcomes is critical to identifying the academic success of 
veterans and the policies, programs, and services that lead to higher 
student veteran success rates. This information will allow Congress and 
the higher education community to better allocate resources to programs 
and services of value.
---------------------------------------------------------------------------
    \3\ Barack Obama. ``Establishing Principles of Excellence for 
Educational Institutions Serving Service Members, Veterans, Spouses, 
and Other Family Members,'' Executive Order 13607, 27 April 2012, 
http://www.gpo.gov/fdsys/pkg/FR-2012-05-02/pdf/2012-10715.pdf
---------------------------------------------------------------------------
    However, current executive and congressional action does not go far 
enough. Given that data on veteran and servicemember outcomes has 
rarely been tracked, we remain concerned that existing Federal data 
remains flawed, or minimal, at best. The greatest challenge when trying 
to track student veteran outcomes is accurately identifying veterans. 
National level data on student veterans has been difficult to find, 
analyze, and interpret due to poor collection methods, narrow inclusion 
criteria, and mistakes in correctly identifying student veterans. Most 
Federally maintained databases on postsecondary student outcomes 
exclude a portion of the student veteran population while including 
other military populations, which decreases accuracy. In addition, 
Federally maintained databases that accurately identify student 
veterans have not collected data on or shared information with other 
databases that collect information on student outcomes, until recently 
though Executive Order 13607.
    These flaws contribute to confusing results and misleading 
perceptions of student veteran postsecondary success. For example, The 
2010 National Survey of Veterans reports a student veteran 
postsecondary completion rate of 68% \4\; the American Community Survey 
reports 56% of veterans have completed at least some college or higher; 
\5\ the National Center for Educational Statistics reports the six-year 
completion rate for student veterans starting in 2003 was 36% with a 
margin of error of 11.5% \6\. It is evident that the current systems 
for tracking student veteran postsecondary academic outcomes are 
inefficient and inadequate. It fosters confusion and is riddled with 
contradictions, all of which masks the value of the GI Bill investment.
---------------------------------------------------------------------------
    \4\ Westat. National Survey of Veterans, Active Duty Service 
Members, Demobilized National Guard and Reserve Members, Family 
Members, and Surviving Spouses. Final Report, Rockville, MD: Westat, 
2010. Retrieved from http://http://www.va.gov/vetdata/docs/
SurveysAndStudies/NVSSurveyFinalWeightedReport.pdf.
    \5\ U.S. Census Bureau. ``Table B21003: Veteran status by 
educational attainment for the civilian population 25 years and over. 
2007-2011 American community survey 5-year estimate,'' Accessed June 
13, 2013. http://factfinder2.census.gov/faces/tableservices/jsf/pages/
productview.xhtml?pid=ACS--11--5YR--B21003&prodType=table
    \6\ U.S. Department of Education, National Center for Education 
Statistics, ``Six-year attainment rate at any institution among all 
first-time beginning students,'' 2003-04 Beginning Postsecondary 
Students Longitudinal Study, Second Follow-up, April, 2009. Accessed 
June 13, 2013. http://nces.ed.gov/surveys/npsas/xls/F09--VETERAN--
PROUT6B.xlsx
---------------------------------------------------------------------------
    The lack of empirical data on the drivers of student veteran 
success creates barriers for institutions of higher learning. Many are 
facing budget reductions and increased demand for services. Without 
accurate data, schools may be investing scarce resources on ineffective 
programs.
    To counter these challenges, SVA believes that a new database or 
system should be established to accurately measure and track student 
veteran academic outcomes. The new database must first be able to 
accurately identify current student veterans, excluding veteran 
dependents and Active Duty service members enrolled in post-secondary 
programs. Second, it would need to be able to track student veterans' 
enrollment at the individual level, so that student veterans are not 
excluded due to transferring schools or taking a break from college.
    These criteria are the foundation of SVA's Million Records 
Projects, also known as the Student Veteran Attainment Database. The 
system was created by SVA in partnership with the Department of 
Veterans Affairs, and the National Student Clearinghouse (NSC). It 
will, for the first time in history, accurately track and measure 
student veteran academic outcomes.
    The Student Veteran Attainment Database utilizes the veteran 
education beneficiary information from the Department of Veterans 
Affairs to identify student veterans. The NSC collects individual 
student enrollment data from institutions of higher education and 
provides accurate enrollment and completion data for individual 
students, even if a student transfers schools or stops-out. By cross 
referencing the data of the VA with the data of the NSC, the Student 
Veteran Attainment database will show the true student veteran 
completion rate for 1 million student veterans enrolled between 2002 
and 2010. Not only will this data provide policymakers with greater 
insight regarding the value of the GI Bill, but it will empower service 
providers and institutions of higher learning to invest in data-driven 
programs, policies, and services that lead to improved student veteran 
academic outcomes.
    A number of resources, based on the little research regarding 
student veteran outcomes that does exist, have already been created to 
catalogue some of these leading practices. The American Council of 
Education, for example, created the Veteran Friendly Toolkit to crowd-
sources policies, programs, and services from their member 
institutions. Victory Media, who operates the GI Jobs Military Friendly 
School List, uses a different scoring rubric to measure and assign 
schools a ``Military Friendly'' designation.
    In addition to ACE's Toolkit and the GI Jobs list, a wealth of 
anecdotal evidence on institutional practices supporting student 
veterans does exist, some of which the committee heard today from 
Riverside City College's SVA Chapter. Their on-the-ground perspective 
is extremely valuable to stakeholders and policymakers. They represent 
the peer-to-peer support structure that eases the transition from the 
military to college life for student veterans.
    Another significant component of success for student veterans is 
the dedication of on-campus space in the form of a student veteran 
resource center or lounge. It allows student veterans to meet one 
another, provide academic support, socialize with peers, or meet with 
veteran-supportive staff like certifying officers, academic advisors, 
and counselors. Some institutions have adopted formal student veteran 
mentorship programs to pair senior student veterans or alumni with 
newly enrolled student veterans. These are just a few examples of how 
institutions can foster a sense of community and support for student 
veterans.
    Anecdotal evidence also shows that removing or easing 
administrative barriers increases a veteran's success on campus. 
Priority registration, for example, ensures that student veterans can 
enroll in classes that meet requirements for utilizing their VA 
education benefits. Exemption from in-state residency conditions allows 
student veterans to begin their studies sooner without needing to meet 
residency guidelines or potentially having to pay extra tuition costs 
as an out-of-state college student. Policies and programs that support 
student veterans when VA benefits are delayed also ensure that student 
veterans can continue their studies uninterrupted.
    Finally, student veterans have reported that when institutions 
invest in understanding their needs, the school is better equipped to 
provide support. An annual survey to understand utilization of on-
campus services and collect feedback is a simple way to collect data. 
It can also be in the form of a resource team or veteran task force 
that listens to student veterans and includes them in the process of 
finding resources and solutions. Some institutions have held veteran 
panels to inform the entire campus community about the experiences of 
student veterans.
    In conclusion, establishing an accurate database to identify 
student veterans and track their academic outcomes is the first vital 
step in providing more effective, robust support for student veterans. 
It is hardly the last. SVA's Student Veteran Attainment Database will 
test an accurate method to capture student veteran degree attainment 
and completion rates. The next phase of the research will be to use the 
data to better understand the drivers of student veteran persistence 
and graduation. Accurate data will empower policymakers, institutions 
of higher learning, student veterans and service providers to invest 
limited resources into effective programs that will lead to a full 
realization of the potential of the GI Bill investment.
    Thank you Chairman Flores, Ranking Member Takano, and distinguished 
members of the Subcommittee for allowing Student Veterans of America to 
submit our views on legislation focused on supporting veterans, 
military servicemembers, and their families.
References
    Barack Obama. ``Establishing Principles of Excellence for 
Educational Institutions Serving Service Members, Veterans, Spouses, 
and Other Family Members,'' Executive Order 13607, 27 April 2012, 
http://www.gpo.gov/fdsys/pkg/FR-2012-05-02/pdf/2012-10715.pdf
    National Student Clearing House. ``Clearinghouse Facts,'' Accessed 
June 14, 2013. http://www.studentclearinghouse.org/about/
clearinghouse--facts.php
    U.S. Census Bureau. ``Table B21003: Veteran status by educational 
attainment for the civilian population 25 years and over. 2007-2011 
American community survey 5-year estimate,'' Accessed June 13, 2013. 
http://factfinder2.census.gov/faces/tableservices/jsf/pages/
productview.xhtml?pid=ACS--11--5YR--B21003&prodType=table
    U.S. Department of Education, National Center for Education 
Statistics, ``Six-year attainment rate at any institution among all 
first-time beginning students,'' 2003-04 Beginning Postsecondary 
Students Longitudinal Study, Second Follow-up, April, 2009. Accessed 
June 13, 2013. http://nces.ed.gov/surveys/npsas/xls/F09--VETERAN--
PROUT6B.xlsx
    VFW Hill Blog. ``VFW Builds Coalition to Support Student-Veteran 
Success,'' February 12, 2012. http://thevfw.blogspot.com/2012/02/vfw-
builds-coalition-to-support-student.html.
    Westat. National Survey of Veterans, Active Duty Service Members, 
Demobilized National Guard and Reserve Members, Family Members, and 
Surviving Spouses. Final Report, Rockville, MD: Westat, 2010. Retrieved 
from http://http://www.va.gov/vetdata/docs/SurveysAndStudies/
NVSSurveyFinalWeightedReport.pdf.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
